                                                                  Issue Date
                                                                  May 29, 2007
                                                                  Audit Report Number
                                                                  2007-LA-1011




TO:         Brian D. Montgomery, Assistant Secretary for Housing Federal Housing
               Commissioner, H



FROM:       Joan S. Hobbs, Regional Inspector General for Audit, Region IX, 9DGA

SUBJECT: Suburban Mortgage Company Did Not Comply with HUD Requirements in the
           Origination of FHA-Insured Single-Family Mortgages


                                    HIGHLIGHTS

 What We Audited and Why

      We audited Suburban Mortgage, Inc. (Suburban), a U.S. Department of Housing and
      Urban Development (HUD)-approved direct endorsement lender located in Phoenix,
      Arizona. Suburban was selected for review because it had a consistently higher than
      normal default-to-claim ratio on its defaulted Federal Housing Administration (FHA)-
      insured loans. Our audit objectives were to determine whether Suburban acted in a
      prudent manner and complied with HUD requirements in the origination of the FHA-
      insured single-family mortgages selected for review. Based upon the results of our initial
      survey, special emphasis was placed on the adequateness of Suburban’s review of
      appraisals related to FHA-insured mortgages on individual units in two condominium
      complexes.

 What We Found


      Suburban did not adequately review selected condominium appraisals and did not comply
      with HUD requirements in the origination of FHA-insured single-family mortgages. As a
      result, HUD insured mortgages on 38 properties that were overvalued by approximately
      40 percent and some of which did not have occupancy authorization from the City of
      Phoenix. The property overvaluations resulted in a corresponding overinsurance of the
           FHA-insured mortgages and an increased risk to HUD. Additionally seven 1 of forty
           eight mortgages we reviewed had significant underwriting deficiencies that should have
           precluded their approval and submission to HUD for insurance, such as unacceptable
           credit, inadequate income or unstable employment, excessive qualifying ratios without
           compensating factors, and unallowable seller contributions.

    What We Recommend


           We recommend that HUD’s assistant secretary for housing – federal housing
           commissioner initiate settlement negotiations with Suburban, requesting reimbursement
           and/or indemnification for HUD’s actual and potential losses on the 34 active and 4
           foreclosed loans involving the overvalued condominiums and the seven loans that had
           significant underwriting deficiencies. Additionally, we recommend that Suburban be
           required to obtain new appraisals on other FHA-insured mortgages that it originated,
           involving the two appraisers and the seller involved with the condominium projects we
           reviewed. We also recommend that appropriate administrative action be taken against
           the two appraisers for their failure to follow HUD appraisal requirements.

           For each recommendation without a management decision, please respond and provide
           status reports in accordance with HUD Handbook 2000.06, REV-3. Please furnish us
           copies of any correspondence or directives issued because of the audit.

    Auditee’s Response


           We provided Suburban a draft report on March 12, 2007, and held an exit conference on
           April 5, 2007. Suburban provided written comments on April 4, 2007. Suburban
           generally disagreed with our report. The complete text of its memorandum response,
           along with our evaluation of that response, can be found in Appendix B of this report.
           Due to the voluminous nature of Suburban’s exhibits in their response, we will make
           them available upon request.




1
    Three of these loans are included with the 38 loans which were overinsured as a result of appraisal overvaluations.


                                                            2
                            TABLE OF CONTENTS

Background and Objectives                                                        4

Results of Audit
      Finding 1: Suburban’s Appraisal Review Process Was Inadequate to Ensure    5
                 That Condominium Units’ Appraised Values Were Reasonable and
                 That the Units Had Obtained Required Occupancy Authorizations

      Finding 2: Suburban did not Follow HUD Requirements When Originating and   17
                 Underwriting FHA-Insured Mortgages

Scope and Methodology                                                            24

Internal Controls                                                                25

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use             26
      Detail of Questioned Costs and Funds to Be Put to Better Use – A-1
   B. Auditee Comments and OIG’s Evaluation                                      29
   C. Schedule of Appraisal Deficiencies – C-1                                   83
      Schedule of Loan Deficiencies – C-2
   D. Narrative Case Summaries – Appraisals                                      86
   E. Narrative Case Summaries – Mortgage Credit                                 125




                                             3
                      BACKGROUND AND OBJECTIVES


The National Housing Act authorizes the U.S. Department of Housing and Urban Development
(HUD) to provide mortgage insurance for single-family homes. HUD must approve a lender that
originates, purchase, holds, or sells Federal Housing Administration (FHA)-insured loans. Lenders
must follow the statutory and regulatory requirements of the National Housing Act and HUD’s
instructions, guidelines, and regulations when originating insured loans. Lenders that do not follow
these requirements are subject to administrative sanctions.

Suburban Mortgage, Inc. (Suburban) is headquartered in Phoenix, Arizona, and was approved as a
nonsupervised direct endorsement lender in 1988. It is locally owned and is one of the largest
privately owned mortgage companies in Arizona. Suburban has four approved branch offices,
including its Phoenix headquarters office. It originates mortgage loans primarily in the Phoenix
metropolitan area. Suburban originated 1,020 FHA loans from March 1, 2004, through February
28, 2006.

Our primary audit objective was to determine whether Suburban originated HUD-insured loans in
accordance with prudent lending practices and HUD requirements.




                                                 4
                                       RESULTS OF AUDIT

Finding 1: Suburban’s Appraisal Review Process Was Inadequate to
            Ensure That Condominium Units’ Appraised Values Were
            Reasonable and That the Units Had Obtained Required
            Occupancy Authorizations
Suburban did not follow HUD requirements or its own quality control plan when reviewing
appraisals submitted as part of loan packages for units sold in two condominium projects. 2
Suburban’s failure to use due diligence during its underwriting appraisal review process resulted
in HUD insuring 38 3 condominium units that were overvalued by approximately 40 percent and
which did not have authorization for occupancy from the City of Phoenix. The property
overvaluations resulted in a corresponding overinsurance on the $3.1 million of FHA-insured
mortgages obtained on the properties and an increased risk to HUD. We attribute the problems
to a disregard of HUD-required appraisal requirements by the two Suburban-selected appraisers,
combined with Suburban’s inadequate internal control environment, which allowed obvious
appraisal errors and omissions to go undetected during the underwriting and quality control
review processes.



    HUD Requirements



         Regulations at 24 CFR [Code of Federal Regulations] 202.5(j)(4) require HUD-approved
         lenders, officers, directors, and employees to conform to generally accepted, prudent, and
         responsible lending practices. Section 202.5(h) requires lenders to implement written
         quality control plans that assure compliance with HUD regulations and other issuances
         regarding loan origination. The specific requirements for HUD-insured loan originations,
         including appraisal requirements, are principally set out in HUD Handbooks 4150.2,
         4155.1, 4000.2, and 4000.4 and various mortgagee letters. HUD Mortgagee Letter 2005-
         06 specifically reminds lenders that they are jointly responsible with the appraisers for
         the quality of appraisals for properties that will be security for FHA-insured mortgages.




2
  Both projects involved the same seller who offered the units to prospective buyers for no money down and no
closing costs; i.e., downpayments and closing costs were absorbed by the seller.
3
  We reviewed the appraisal reports for 19 of these 38 condominium units located in two complexes. The units in
these two complexes are essentially the same without any differences that would affect their valulations. Basically,
they are the same in size, design, construction, remodeling, and sales price. Accordingly, all the units, by size,
respectively in the two complexes would have the same market values. Thus, the 19 units we did not review would
be overvalued by a similar amount, i.e. approximately 40 percent.

                                                         5
    Appraisal Deficiencies Resulted
    in Overvaluation of the Subject
    Condominium Units


         The two appraisers 4 selected by Suburban to appraise the subject condominium units did
         not follow HUD appraisal requirements, including the Uniform Standards of Professional
         Appraisal Practice, when appraising the units in the two condominium projects.
         Specifically, the appraisers did not accurately describe the units being appraised and did
         not identify and use appropriate comparable properties when using the sales comparison
         approach to value the condominium units (see Appendix C-1). These errors resulted in
         the creation of artificial, inflated values for the units in the two condominium projects
         and a corresponding unwarranted increase of approximately 40 percent for the 38 FHA-
         insured mortgages underwritten by Suburban for units in the projects.

    The Condominiums Were
    Inaccurately Described



         The appraisals did not accurately reflect the subject condominiums’ condition and
         characteristics. The subject projects (see below) are two- and three-story walk-up
         apartment complexes that were converted to one- and two-bedroom condominium units.

    Project address                Units       Bedrooms/baths            Quantity/size         Year built      Age 5
3010 W. Camelback Rd.                         1 bedroom/1 bath            26 – 684’
Phoenix, AZ                          72       2 bedroom/2 bath            46 – 968’               1973          31
2537 W. Georgia Ave.
Phoenix, AZ                          28       2 bedroom/1 bath              28 – 792’             1982          23




4
  The two appraisers involved with these two projects were also involved with the same seller in at least 10 other
condominium conversion projects involving FHA-insured loans originated by Suburban.
5
  Age represents the age of the units at the date of the appraisals used for FHA insurance purposes.

                                                          6
                             Exterior Views of the Two Condominium Complexes

        3010 W. Camelback Rd., Phoenix                                 2537 W. Georgia Ave., Phoenix




        We reviewed 19 of the 38 6 appraisals related to the FHA-insured mortgages approved by
        Suburban in the two projects and noted numerous descriptive errors made by the
        appraisers that contributed to an inflated value for the units. For instance, in FHA case
        023-1892486-7, the appraiser completed the appraisal as if the unit had been a two-
        bedroom, two-bath, 948-square-foot unit. However, this is a one-bedroom, one-bath,
        684-square-foot unit. Additionally, the appraiser selected a comparable unit (#132) from
        the same complex as the subject unit and inaccurately described and evaluated it as a
        three-bedroom, 1,298-square-foot unit when it is a two-bedroom, 968-square-foot unit.
        There are no three-bedroom units in the entire project. (Three months later, as part of a
        different appraisal, the same appraiser correctly listed the unit’s square footage and
        number of bedrooms). The other two comparables used to establish the appraised value
        for this unit were also two-bedroom units, not one-bedroom units (also see our discussion
        of inappropriate comparables below). Based upon this information, it appears that the
        appraiser purposely appraised the subject property as a larger unit to establish a higher
        value for one-bedroom units in the condominium complex. This was the first sale in the
        project, and the inflated value of the unit was used to support the sales price of later sales,
        for this project.

        In addition to the above misrepresentations on this and other appraisals, the appraisers
        embellished and/or falsely added other characteristics and amenities to add value to the
        units where none existed, such as

        ¾ Covered porch - The condominium projects do not have covered porches; the only
          cover is a roof overhang on the top floor and an upper floor walkway that overhangs
          the first floor (see photos above).


6
 This includes 34 active FHA-insured loans and four foreclosed loans in which a claim was submitted to HUD.
Additionally, we reviewed the appraisals related to four other loans that were originally FHA-insured but have since
been terminated.

                                                         7
   ¾ Foyer - One appraiser listed the units in the Camelback project as having foyers; the
     second appraiser did not list this amenity.
   ¾ Energy-efficient windows - The appraisals show that the units in the 2537 Georgia
     Avenue complex had dual pane energy-efficient windows installed as part of the
     remodeling/conversion work. However, only one unit out of 28 had new dual pane
     windows installed. The remaining 27 units appear to have the same single pane
     windows that were installed when the building was constructed 25 years ago.
   ¾ Appraisal form - One of the appraisers used the Uniform Residential Appraisal
     Report (FNMA Form 1004), primarily used for appraising single-family properties,
     rather than the Individual Condominium Unit Appraisal Report (Fannie Mae Form
     1073). Although this form was acceptable to HUD at the time the appraisals were
     submitted, it does not provide the detailed information provided by Form 1073 that
     could be used to analyze the characteristics of the complex, including owner
     occupancy percentage. The owner occupancy information detailed on a
     condominium appraisal form can be used to assess the 51 percent owner/occupancy
     requirement. Only 7 of the 23 units we reviewed met HUD’s 51 percent owner
     occupancy requirement at the time they were submitted for insurance endorsement.

   The appraisers also made other errors on their appraisals of the subject condominium
   units that appear to indicate either sloppiness or intentional misrepresentation, including

    ¾ Using the same comparable units on different appraisals but providing different
      property descriptions (of the comparables) on the separate appraisals,
    ¾ Incorrectly listing comparable units’ financing as FHA when conventional financing
      was used and vice versa, and
    ¾ Incorrectly listing the Camelback project as having 64 total units when it has 72
      units.

   The above misrepresentations and errors in the description of unit and project
   characteristics and amenities, combined with the use of inappropriate comparable units
   discussed below, contributed to significant overvaluation of the individual units in the
   two projects and corresponding overinsured FHA mortgages.

Inappropriate Comparable
Units and Invalid Adjustments
Were Used to Establish Values

   The comparable units used to establish values for the condominium units were not valid
   or appropriate. Suburban used two appraisers to conduct all of the appraisal work for the
   FHA-insured loans they underwrote for the two condominium projects reviewed. Our
   analysis of those appraisals indicated that the appraisers inappropriately used
   questionable appraisal techniques and inappropriate comparables to inflate the value of
   the initial units sold in the projects. The overvaluation of those units created an artificial
   market that allowed the appraiser to then use them as comparable units for later



                                             8
condominium sales in the two complexes reviewed, resulting in the overvaluation of
those units as well (individual appraisal deficiencies noted are more fully discussed in
appendix D). In the opinion of the Office of Inspector General’s (OIG) appraiser/analyst,
there were significant deficiencies in the analyses used by the appraisers that resulted in
the units being overvalued by approximately 40 percent, such as

¾ Use of comparable units that had a preferable design and were better constructed and
  models that were originally built as condominium units, not converted to
  condominiums as were the subject projects;
¾ Making excessive, unsupported adjustments to value;
¾ Frequently selecting comparable units that were outside the neighborhood boundaries
  detailed in the appraisal report without a valid reason, although valid comparables,
  similar in age, design, and construction, were available within the neighborhood.

Comparable units used were not similar

The appraisal reports clearly show that the appraisers frequently selected comparable
properties that were not of the same type, design, and construction as the subject units. In
one extreme case, the comparable unit chosen was half the age of the subject property; a
single-level townhome, compared to a three-story apartment type complex; and in a low-
traffic residential neighborhood surrounded by single-family homes, compared to a high-
traffic mixed community of businesses, apartments, and single-family homes. This
comparable unit, shown below, is a two-bedroom, two-bath, 975-square-foot
condominium. This unit was inappropriately used as a comparable unit for the first FHA
appraisal in the Camelback project that falsely portrayed a one-bedroom unit as a two-
bedroom unit (discussed above). Additionally, other units from this complex were
frequently used to initially establish the project’s one-bedroom property values (although
all units in this project are two-bedroom). The appraiser failed to make appropriate
adjustments for the neighborhood, location, style, design, age (16 years compared to 30),
and construction. In addition, the units in this complex were only used to establish the
values for one-bedroom units and not the two-bedroom units that would have better
matched the number of bedrooms and square footage in the Camelback project. By using
these units to value one-bedroom units rather than two-bedroom units and not making the
appropriate adjustments, the appraisers appear to have purposely inflated the value of the
one-bedroom units.




                                         9
Dissimilar Condominium Units Often Used as Comparables




Similar problems were noted with other comparable units used by the appraisers.
Suburban failed to adequately review the photos and other information in the appraisal
reports that clearly indicated the appraisers’ frequent use of comparable properties that
were not of the same type, design, and construction as the subject units.

Valuation adjustments were not valid or supported

Large valuation adjustments were made by the appraisers without reasonable support to
validate the legitimacy of the adjustments. For example, one of the comparable
properties used is part of a planned gated community that has a mixture of single-story
and two-story condominiums, town homes, and single-family homes. The appraiser
claimed that the selected comparable unit in this planned community was similar in
design, size, remodel condition, and appeal to the unit being appraised. We verified that
the comparable unit was in a more economically stable community and better location
and was not similar in design, size, and appeal (as shown in the photo below). The
appraiser made a value adjustment (increase) of $12,000 or 21 percent of the gross selling
price of the comparable unit. The appraiser’s $12,000 added value was based on the
“totally remodeled” condition of the subject property. We found that this “remodeling”
of the subject project was incomplete and poorly done and did not meet city code (see our
discussion of the subject unit’s remodeling status below). Such a large adjustment to a
clearly superior property should have alerted Suburban to potential appraisal problems.
However, Suburban did not question the large valuation adjustments made by the
appraiser without reasonable support nor the obvious differences between the comparable
unit and the subject unit.




                                         10
Clearly Superior Condominium Unit Comparable for Which Inappropriate Value
                           Adjustment was Made




  Noncomparable units were selected when suitable comparable units were available

  The appraiser frequently selected comparable units that were outside the subject units’
  neighborhood, in economically stable, better kept communities, and in locations where
  properties normally sold for much higher prices. Our analysis of the appraisals found
  that the appraiser often went outside the recommended one-mile radius, often going as far
  as five miles away, to locate comparable units. In one case, a comparable unit was
  selected that was two blocks away from a prestigious community known to cater to the
  wealthy. In another case, the comparable unit was within walking distance of an
  entertainment district where, historically, properties commanded a much higher price
  than properties in the economically distressed area where the subject condominium units
  were located. Suburban did not question why the appraiser went outside the
  neighborhood boundaries listed on the appraisal report to obtain comparable sales or
  determine whether other condominium projects in the subject properties’ market area had
  recent comparable sales.

  The appraisers frequently stated on the appraisal reports that a lack of recent sales in the
  subject property’s market forced them to go outside of the neighborhood to select suitable
  comparable units. However, based upon a review of the Arizona Multiple Listing
  Service and the Maricopa County Tax Assessor’s databases, there were numerous
  condominium sales within the relevant periods that matched the subject projects’
  characteristics of size, age, design, and construction. Some of these comparables are
  detailed below.




                                          11
Sale         Year      Sale                                  Zip    Beds/    Sq.           Garage/
price        built     date      Address                    code    baths    ft.   Stories carport
                     June 15,
 $45,300 1974          2003      6810 N. 35th Ave.          85017     2/1    728      1          2
                     Aug. 22,
 $58,770 1974          2003      6818 N. 35th Ave.          85017     2/2    987      1          2
                     Sept. 26,
 $51,360 1984          2003      2928 W. Colter St.         85017     2/2    806      1          1
                     Dec. 26,
 $45,900 1974          2003      6820 N. 35th Ave.          85017     2/1    728      1          2
                     Feb. 10,
 $50,000 1971          2004      3008 W. Bethany Home       85017     2/1    994      2          2
                     Mar. 30,
 $45,000 1981          2004      2724 W. McLellan Blvd.     85017    2/1.5   986      2          1
                     May 15,
 $63,000 1981          2004      2740 W. McLellan Blvd.     85017    2/1.5   986      2          1
                     Aug. 20,
 $42,500 1973          2004      3232 W. Vermont Ave.       85017    2/1.5   992      1          1
                     Dec. 27,
 $55,000 1973          2004      3243 W. Denton Ln.         85017     2/1    992      1          1
                      Nov. 3,
 $59,000 1974          2004      6818 N. 35th Ave.          85017     2/1    728      1          2
                     Apr. 11,
 $59,900 1974          2005      2132 W. Glenrosa Ave.      85015    2/1.5   960      1          1
                     Jan. 21,
 $51,500 1973          2005      3321 W. Vermont Ave.       85017     2/1    960      2          1
                     May 18,
 $69,900 1973          2005      3314 W. Denton Ln.         85017    2/1.5   960      2          1

        Suburban’s appraisers apparently ignored these more suitable comparable units and went
        outside the subject condominium’s market area to selectively choose higher valued units
        to support the inflated sales prices of the units being appraised. In the opinion of OIG’s
        appraiser/analyst, sales within the market area/neighborhood of the two subject
        condominiums supported a maximum value of $50,000 for the one-bedroom
        condominium units, not the $71,200 average value provided by Suburban’s selected
        appraisers; and the larger two-bedroom units should have appraised at approximately
        $59,000, not the $89,000 average value provided by Suburban’s selected appraisers.

Unit Remodeling Was
Inadequate


        The seller of the condominiums did not obtain completion certificates and related
        occupancy authorization from the city for the conversion/rehabilitation work done.
        According to the City of Phoenix Development Service Department, both complexes
                                                12
required construction permits to rehabilitate the infrastructure of the buildings to
accommodate the condominium upgrades. Some of the specific upgrades were electrical
wiring, plumbing, roofing, and installation of security gates. Online City of Phoenix
records (available to the public), show that only 4 of 72 units have passed inspection for
the 3010 W. Camelback Road project, and only 22 of 28 units have passed inspection for
the 2537 W. Georgia Avenue project. The remaining units still have open building
permits and, therefore, should not have been sold and occupied until the work was
complete and certified by city inspectors. According to the City of Phoenix’ Assistant
Director for Development, final inspections of these units will be made by the city, and
the current owners will be held responsible for bringing their units up to code if
deficiencies are noted.

Further, based upon interviews with the condominium owners and inspections of the
properties, the seller did not suitably remodel the units and did not install items that,
according to the condominium sales brochures, were to be part of the remodeling work.
According to the property owners, the remodeling work was so poor that two owners
were temporarily displaced so that major reconstruction of the interior rooms could be
accomplished. These two units, are still vacant. The majority of owners stated that they
had to replace, repair, or finish aesthetic items on their own because the seller often
promised to do the work but did not follow through with the repairs. Overall, the owners
were very dissatisfied with their units, and many commented that they planned on selling
their units as soon as possible.

We also noted many problems during our inspections of the properties, including

¾ Plumbing leaks and drainage problems – Several owners we interviewed stated that
  they continue to have plumbing problems, and some units we inspected showed
  evidence of internal leaks that caused deterioration of the units’ interior walls.

¾ Electrical problems - In one project, power outages affected the exterior lighting and
  took several days to repair. Some units in the same project had faulty wiring to
  electrical outlets and telephone jacks that the owners stated had never worked.

¾ Unfinished remodeling work – At least three units had flooring defects such as rotted
  floorboards and holes that were purposely covered over (not repaired) with carpeting
  and linoleum. Several owners complained that painting and molding work was
  superficial and was only done where it was visible. Energy-efficient windows that
  were listed as part of the remodeling work at one of the projects had not been
  installed in 27 of the 28 units.

The need to close out open city building permits and obtain occupancy authorizations
should have been noted during the property appraisal process but was either not identified
or ignored by the appraisers. Suburban’s inadequate review of the appraisal reports
allowed this problem to go undetected and has resulted in HUD assuming excessive risk
for mortgages on properties that do not meet city building codes and financially



                                        13
     jeopardized the current owners, who may be required to pay for expensive repairs to
     bring their units up to city building code standards.

Suburban Did Not Adequately
Review the Appraisal Reports



     Suburban’s underwriting review of the appraisals related to units in these two
     condominium projects did not meet HUD requirements or the standards of a prudent
     lender. Further, Suburban failed to include appraisal reviews as part of its (implemented)
     quality control process, although such reviews are required by its written quality control
     plan and HUD requirements. Consequently, Suburban failed to identify and act on the
     obvious appraisal problems related to the two condominium projects. Had it carried out
     its responsibilities, it would have identified the appraisal problems before it submitted 38
     overvalued mortgages to HUD for insurance endorsement.

     As discussed above and in Appendices D-1 to D-19, there were numerous indicators of
     problems with the appraisal reports, related to the two condominium complexes that
     should have led Suburban to question the validity of the appraisers’ factual information
     and the plausibility and consistency of their conclusions. These indicators included use
     of the Uniform Residential Appraisal Report form (although acceptable by HUD at the
     time of submission) instead of the Individual Condominium Unit Appraisal Report,
     which resulted in a limitation on the information available related to the condominium
     units; violations of the 51 percent owner occupancy clearly discernable from file
     information; not noting errors in property descriptions or questioning why the appraisers
     always had to go outside the neighborhood to find comparable sales; not questioning why
     the appraised values of the subject condominium units significantly exceeded the
     predominant neighborhood values; not questioning design and construction differences
     clearly identifiable through review of property photos; not questioning the use of
     unsupported adjustments to comparable sales prices; not questioning the significantly
     different neighborhoods of the comparable properties versus the subject condominium
     units; and the failure to question whether rehabilitation/renovation of the units had been
     completed in accordance with outstanding city building permits (available to the public
     online).

     Additionally, Suburban’s written quality control plan (and HUD requirements) calls for a
     compliance review of approximately 10 percent of its processed loans and a review of
     loans related to any borrower that defaulted within the first six months of loan closing.
     This includes a review of the appraisal report of the selected loans. The appraisal review
     should entail a desk review of the appraisal data to determine the validity of the
     comparable units, the value conclusion, any changes made by the underwriter, and
     overall quality of the report. In addition, a field review is required for a sample of the 10
     percent and for all loans that went into default. However, Suburban’s reviews did not
     include desk reviews and, when applicable, field reviews of appraisal reports.
     Suburban’s quality control reviews did not include any reverification of loan

                                              14
     information as called for in its written quality control plan. For example, the following
     document represents Suburban’s entire quality control review file related to a defaulted
     loan selected from our audit period.

                                FHA case file 023-220924-0




     Suburban officials stated that during this period, they had changed their quality control
     procedures but failed to implement a document review process as required by their
     quality control plan and HUD requirements. They claimed that beginning in June 2006,
     they changed their procedures and are now reordering and analyzing the required loan
     documents, including obtaining new appraisals. However, the failure to previously
     review appraisal reports during the quality control process contributed to Suburban’s
     failure to identify the problems with the appraisals related to these condominium units.

Conclusion


     Suburban did not follow HUD requirements or its own quality control plan when
     reviewing appraisals related to condominium units in two converted apartment projects.
     Consequently, it failed to identify significant problems with the appraisals, which
     resulted in the creation of an artificial market value and an overvaluation of all the units
     in the two projects appraised for Suburban by approximately 40 percent. Further, it failed
     to note that the conversions from apartments to condominiums were not completed in
     accordance with local city requirements, and as a result, the majority of the units in the
     projects were not authorized for occupancy. As a result, HUD has been placed at
     increased risk on 38 insured mortgages totaling $3.1 million that were overinsured


                                             15
    because of the inflated values of the units serving as security for the mortgages.
    Additionally, the failure to ensure that the units obtained completion certificates from the
    city for the conversion/rehabilitation work not only increases HUD’s risk, but also could
    result in financial harm to the purchasers of the units who will be held responsible for
    correction of any code violations found when the city performs its final inspection of the
    units.

    The seriousness of the appraisal problems related to these two condominium conversion
    projects, and Suburban’s inadequate appraisal reviews, raises concerns about other
    similar projects involving the same two appraisers and seller. In this regard, we
    identified 10 other conversion projects involving these appraisers and seller where some
    of the units in the properties were purchased using FHA-insured mortgages originated by
    Suburban. The validity of the appraisals related to these units should be evaluated to
    determine whether appraised values and the resultant FHA-insured mortgages are
    supported.

Recommendations


    We recommend that HUD’s assistant secretary for housing – federal housing
    commissioner

    1A. Initiate settlement negotiations with Suburban, requesting reimbursement and/or
    indemnification for HUD’s actual and potential losses on the 38 loans detailed in
    appendix C-1 totaling more than $3.1 million.

    1B. Require Suburban to obtain new appraisals on all active FHA-insured loans it
    originated that involved the two appraisers and the seller of the condominium complexes
    described in this report. If similar property overvaluations are found, require Suburban to
    indemnify HUD on any overinsured mortgages identified.

    1C. Require Suburban to implement procedures that will ensure appropriate review of
    appraisals during its quality control review process.

    1D. Take appropriate administrative action against the two identified appraisers,
    including removing them from the roster of approved FHA appraisers, for their failure to
    adhere to HUD appraisal requirements.




                                             16
Finding 2: Suburban Did Not Follow HUD Requirements When
            Originating and Underwriting FHA-Insured Mortgages

Suburban did not follow prudent lending practices and HUD requirements in the origination and
underwriting of 7 of the 48 7 loans we reviewed. As a result, loans were approved, which
contained origination deficiencies that subjected HUD to an unacceptable insurance risk. These
underwriting deficiencies included inadequate borrower credit analysis, inadequate analysis of
borrower employment and income, lack of compensating factors to support high loan ratios, and
ineligible contributions by property sellers. (Also, see finding 1 relating to Suburban’s
inadequate review of appraisals during the underwriting and quality control review processes).
Consequently, HUD paid insurance claims on four loans totaling $394,303 and continues to be at
risk for three loans totaling $360,633, which did not meet HUD approval requirements. In
addition, in 24 of the 48 loans reviewed, Suburban allowed interested third-party involvement in
the document verification process. Although we did not note any negative effects resulting from
this inappropriate involvement, it represents a significant processing weakness that should have
been identified and addressed by Suburban during its underwriting and quality control review
processes.




    HUD Requirements

           Regulations at 24 CFR [Code of Federal Regulations] 202.5(j)(4) require HUD-approved
           lenders, officers, directors, and employees to conform to generally accepted, prudent, and
           responsible lending practices. Section 202.5(h) requires lenders to implement written
           quality control plans that assure compliance with HUD regulations and other issuances
           regarding loan origination. The specific requirements for HUD-insured loan originations
           are principally set out in HUD Handbooks 4155.1, 4000.2, and 4000.4 and various
           mortgagee letters.

    Suburban Did Not Have
    Adequate Controls over Loan
    Origination and Control
    Processes


           Suburban did not follow HUD requirements in the origination of 7 of 48 loans reviewed,
           resulting in an increased risk to the FHA insurance fund. These underwriting deficiencies
           occurred because Suburban employees did not follow or did not understand HUD
           requirements relating to loan processing and quality control. Problems noted in
           Suburban’s loan origination and control processes included


7
    Eighteen of these mortgages were also analyzed during our appraisal review process discussed in finding 1.


                                                          17
          ¾ Not properly analyzing borrower’s credit history,
          ¾ Not properly analyzing borrower’s employment history and income,
          ¾ Not ensuring that appropriate compensating factors existed when debt-to-income
            standards (ratios) were exceeded,
          ¾ Improper use of alternative financing programs for borrowers who did not meet
            requirements for the programs,
          ¾ Allowing sellers to make ineligible or excessive contributions on the borrower’s
            behalf,
          ¾ Allowing interested third parties to handle critical verification documents, and
          ¾ Not adequately reviewing a sample of all loans it originated and those loans that
            defaulted within six months of origination as part of the quality control process.


    Credit Histories Were
    Questionable, and Liabilities
    Went Unreported


         Suburban improperly analyzed the borrower’s credit history for six of the seven
         questioned mortgages. In two instances, Suburban failed to pursue
         nontraditional/alternate credit when the credit-reporting agency was unable to rate the
         borrower’s credit. HUD regulations require the lender to develop an alternative credit
         history for those borrowers who have not established credit or choose not to use credit. 8

         In five instances, Suburban did not obtain a credible explanation for delinquent accounts
         as required by HUD. 9 For example, in FHA case 023-203364-5, the borrower’s credit
         report showed nine collection accounts. The borrower’s explanation of these credit
         problems was that she used credit cards to support herself while in school. However, the
         delinquent accounts were incurred before and extended beyond the documented period
         that the borrower was attending school. Suburban failed to demonstrate that the
         borrower’s excessive delinquent accounts were beyond her control.

         In two instances, Suburban failed to use all of the borrower’s and/or the nonpurchasing
         spouse’s liabilities to calculate debt-to-income ratios. 10 In one case, FHA case 023-
         199965-1, the lender did not obtain the spouse’s credit report and failed to update the
         borrower’s report that exceeded the maximum 120 days and, therefore, was outdated for
         loan analysis and approval purposes. Although the borrower minimally exceeded HUD’s
         debt-to-income standard, the actual excess is unknown because Suburban used an
         outdated credit report for the borrower and did not obtain a credit report for his spouse.




8
  HUD Handbook 4155.1, REV-5, paragraph 2-3.
9
  Same as eight: “Explanation must make sense and be consistent with other credit information in file.”
10
   HUD Handbook 4155.1, REV-5, paragraph 2-11/2-2D.


                                                        18
     Employment Was Questionable,
     and Income Was Unsupported



          For three of the seven questioned loans, Suburban did not substantiate the borrowers’
          effective income and/or stability of employment. HUD requires the lender to verify the
          borrowers’ most recent two full years of employment or obtain evidence supporting other
          endeavors. Any gaps in employment longer than 30 days require an explanation.
          Additionally, the income of each borrower must be analyzed to determine whether the
          borrower(s) has the capacity to repay the mortgage debt. 11 In one case, FHA case 023-
          220924-0, the borrower had been employed at his current job for only one month.
          Suburban loosely substantiated an additional year of employment through another
          verification of employment and borrower statements. However, actual employment
          history was verified for only the five months before the loan application. During this
          period, the borrower had two different jobs and was unemployed for one month between
          the two jobs. This limited and unstable job history did not meet HUD’s requirements for
          both two years’ verified employment and a stable income history.

     Mortgages Had High Debt-to-
     Income Ratios without Valid
     Compensating Factors


          For six of the seven mortgages, HUD’s recommended debt-to-income ratios were
          exceeded without documented, valid compensating factors. 12 HUD guidelines require
          the lender to obtain and document on the mortgage credit analysis worksheet “remarks”
          section the compensating factors that justify exceeding the benchmark guidelines. 13 In
          one case, FHA case 023-203364-5, the borrower exceeded the front-end ratio by 8
          percent and the back-end ratio by 10 percent. Suburban listed some claimed
          compensating factors that were not supported by verifiable documents or did not pertain
          to the qualifying ratios. In another instance, Suburban did not list compensating factors
          in the “remarks” section when the recommended qualifying ratios were exceeded.

     Use of the Interest Rate Buy-
     Down Program Was
     Inappropriate


          For three of four loans reviewed, in which the borrowers used a 2-1 interest rate buy-
          down program to assist in qualifying for their mortgages, Suburban failed to provide
          adequate compensating factors to offset the increased risk resulting from future mortgage
          payment increases. As required by HUD, the lender must establish that the eventual

11
   HUD Handbook 4155.1, REV-5, paragraph 2-6/2-7.
12
   HUD Handbook 4155.1, REV-5, paragraph 2-12A.
13
   HUD Handbook 4155.1, REV-5, paragraph 2-13.


                                                    19
          increase in mortgage payments in such cases will not affect the borrower adversely and
          likely lead to default. 14 In these three instances, Suburban did not demonstrate that the
          borrowers had the capacity to increase income or manage financial obligations or had
          substantial assets to cushion the increase in mortgage payments, which could assist the
          borrowers in meeting their increasing mortgage payments. In one instance, even after
          taking into consideration the lowered payment resulting from the interest rate buy-down,
          the borrowers’ debt-to-income ratios exceeded HUD standards.


     Contributions Were Ineligible



          In four instances, Suburban allowed an interested third party to contribute funds on the
          borrowers’ behalf in excess of HUD’s standards or to provide funds to pay off borrowers’
          delinquent debts at closing. 15 Suburban’s failure to properly analyze the borrowers’
          assets, gifts, and the closing statements allowed these ineligible contributions to go
          undetected. For example, for FHA case 023-221521-7, the lender did not verify source
          of funds used to pay off $653 in delinquent accounts at closing. Information from the
          loan file indicated that the borrower consistently had overdrafts on his account and would
          not have been able to pay $520 in closing costs and the $653 for delinquent accounts. In
          this regard, the borrower stated that he did not make the $653 payment but believed it
          was paid by the seller. This would result in overinsurance as interested third parties are
          not allowed to pay delinquent borrower accounts, and if they do so, the FHA-insured
          mortgage must be reduced by a like amount.




14
     HUD Handbook 4155.1, REV-5, paragraph 2-14B2.
15
     HUD Handbook 4155.1, REV-5, paragraph 2-10C.

                                                     20
     Inappropriate Interested Third
     Parties Were Involved


          In 24 of the 48 loan files reviewed, interested third parties (sellers) were involved in the
          verification or transmittal of borrower loan documents (income, employment, credit,
          and/or explanation letters). The supporting loan documents were transmitted to Suburban
          through the seller’s fax machine, clearly indicating seller control over the documents. In
          accordance with HUD guidelines, lenders cannot accept or use documents relating to
          credit, employment, or income that are handled by or transmitted by or through interested
          third parties. 16 Although we identified no adverse consequences resulting from this
          practice, it is a significant control weakness that Surburban should have identified and
          corrected during its underwriting and quality control review processes. Allowing
          interested third-party involvement in the processing of borrower loan documents
          increases the risk of fraud in the origination process, thereby increasing HUD’s insurance
          risk.




16
     HUD Handbook 4155.1, REV-5, paragraph 3-1.

                                                  21
     The Quality Control Review
     Process Was Inadequate


          Suburban’s quality control review process, as implemented, did not meet HUD
          requirements and serve as a tool for identifying and correcting problems in its loan
          origination and underwriting process. Suburban’s written quality control review plan and
          HUD requirements 17 called for the reverification of assets, employment, gifts, credit, and
          appraisals of approximately 10 percent of loan originations (and all insured loans
          defaulting within six months). However, there was no documentation in its files
          indicating that these reverifications were done. In one instance, the total quality control
          review file consisted of one piece of paper with no documented analysis of the loan or
          any reverifications (see finding 1). Without detailed quality control reviews, including
          reverification of critical loan documents, problems in the loan origination and
          underwriting processes (such as those problems set out in findings 1 and 2 of this report)
          will not be identified and corrected. Suburban officials stated that beginning in June
          2006, it started obtaining and analyzing reverification documents as required by HUD.


Conclusion


          Suburban did not comply with HUD requirements in processing and underwriting seven
          FHA-insured loans reviewed. Deficiencies in its analysis of borrowers’ credit,
          employment history, and income; a failure to ensure there were adequate compensating
          factors to support high debt-to-income ratios; and its failure to consider the future effects
          on mortgage risk related to borrowers’ use of 2-1 interest rate buy-down mortgages have
          placed HUD’s FHA insurance program at increased risk. Deficiencies related to these
          seven loans were significant enough to warrant indemnification. Accordingly, we
          recommend that Suburban indemnify HUD for actual losses incurred on four loans
          totaling $394,303, on which HUD has paid insurance claims, and for potential losses on
          three loans totaling $360,633 (see appendix C-2).




17
     HUD Handbook 4060.1, REV-1, paragraph 6-6.

                                                   22
Recommendations


    We recommend that HUD’s assistant secretary for housing – federal housing
    commissioner

    2A. Initiate settlement negotiations with Suburban, requesting reimbursement and/or
    indemnification for HUD’s actual and potential losses on the seven loans detailed in
    appendix C-2 totaling $754,936.

    2B. Require Suburban to implement controls to ensure that its quality control plan is
    fully implemented and that reverifications required by the plan are obtained and
    analyzed.




                                           23
                        SCOPE AND METHODOLOGY

Suburban was selected for review due to its higher than average default-to-claim ratio for FHA-
insured loans originated under the Phoenix, Arizona, HUD field office jurisdiction. We
performed our audit fieldwork at the office of Suburban and at several title companies in
Phoenix, Arizona.

To accomplish our audit objectives, we

    ¾   Reviewed applicable HUD handbooks and mortgagee letters, the Uniform Standard of
        Professional Appraisal Practice (USPAP) standards, and the International Building Code
        regulations.

    ¾ Reviewed 48 insured loans originated by Suburban during the period March 1, 2004,
      through February 28, 2006, and reviewed the appraisals (only) for an additional 8 loans.

    ¾ Conducted interviews with officials and employees of Suburban, title companies, and the
      seller of the two condominium projects included in our review.

    ¾ Contacted and interviewed borrowers as deemed appropriate.

    ¾ Conducted field visits to inspect the two condominium projects included in our review
      and the comparable units used by the appraisers to establish the subject condominium
      units’ values.

    ¾ Used information obtained from HUD’s Neighborhood Watch and Single Family Data
      Warehouse systems; Real Quest; and the Maricopa County Tax Assessor’s and City of
      Phoenix, Development Service Department’s online databases.

The audit generally covered the period March 1, 2004, through February 28, 2006. The period
was expanded to cover the review of the first 10 appraisal reports, obtained by Suburban for one
of the condominium projects, that were completed beginning in September 2003. We performed
the audit in accordance with generally accepted government auditing standards.




                                               24
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   ¾ Effectiveness and efficiency of operations,
   ¾ Reliability of financial reporting, and
   ¾ Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
       We determined the following internal controls were relevant to our audit objectives:

   ¾ Suburban’s controls over the underwriting of FHA loans.
   ¾ Suburban’s controls over its quality control review process.

       We assessed the relevant controls identified above.

       A significant weakness exists if management controls do not provide reasonable
       assurance that the process for planning, organizing, directing, and controlling program
       operations will meet the organization’s objectives.

 Significant Weaknesses


       Based on our review, we believe the following items are significant weaknesses:

   ¾ Suburban did not have adequate controls over its loan origination process to reasonably
     ensure that loan originations, including appraisals, complied with HUD requirements and
     prudent lending practices (see findings 1 and 2).
   ¾ Suburban’s controls were inadequate to ensure that its quality control review process
     was fully implemented (see findings 1 and 2).




                                               25
                                               APPENDIXES

Appendix A
                      SCHEDULE OF QUESTIONED COSTS
                    AND FUNDS TO BE PUT TO BETTER USE 18

             Recommendation               Ineligible 1/            Unsupported 2/              Funds to be put to
                 number                                                                        better use 3/
                   1A                        $35,624                    $19,463                      $789,092
                   2A                          7,135                                                   101,747

                     Total                   $42,759                    $19,463                     $890,839

1/         Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
           that the auditor believes are not allowable by law; contract; or federal, state, or local
           polices or regulations. In this instance, the amount represents actual losses incurred on
           HUD’s resale of four properties on which claims were paid.

2/         Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
           or activity when we cannot determine eligibility at the time of audit. Unsupported costs
           require a decision by HUD program officials. This decision, in addition to obtaining
           supporting documentation, might involve a legal interpretation or clarification of
           departmental policies and procedures. In this instance, the amount represents 29 percent
           of the claim amount paid by HUD for one property, which has not yet been resold (see
           Note 3/ below.

3/         Recommendations that funds be put to better use are estimates of amounts that could be
           used more efficiently if an OIG recommendation is implemented. This includes
           reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
           incurred by implementing recommended improvements, avoidance of unnecessary
           expenditures noted in preaward reviews, and any other savings which are specifically
           identified. Implementation of our recommendation to indemnify loans that were not
           originated in accordance with FHA requirements will reduce FHA’s risk of loss to the
           insurance fund. In this instance, the amount represents 29 percent of the outstanding
           mortgage balances on the 39 properties on which OIG is recommending indemnification,
           which were still active as of February 16, 2007. The percentage reflects that, based upon
           statistics provided by HUD, upon sale of the mortgaged property FHA’s average loss
           experience is about 29 percent of the claim amount.




18
     See Appendix A-1 for detailed information relating to the computation of these amounts.

                                                          26
Appendix A-1
    DETAIL OF QUESTIONED COSTS AND FUNDS TO BE PUT TO BETTER USE

                                                                            Indemnification amount
        FHA     Outstanding                          Claims paid property   (funds put to better use)
        case     mortgage        Loss on resale           not resold          29% of outstanding
         no.     balance        (ineligible cost)     (unsupported cost)       mortgage balance
023-1892486           $64,601                  $ -                     $-                      $18,734
023-1966202            65,114                                                                   18,883
023-1971458            65,532                                                                   19,004
023-1984859            86,806                                                                   25,174
023-2033645             Claim              16,257
023-2099918             Claim               6,371
023-2171644            69,355                                                                  20,113
023-2196544            68,752                                                                  19,938
023-2209240             Claim              12,996
023-2159234            95,051                                                                  27,565
023-2157852            77,988                                                                  22,616
023-2238326            78,755                                                                  22,839
023-2273203            81,433                                                                  23,616
023-2300236            81,938                                                                  23,762
023-2300111            81,460                                                                  23,623
023-2290180            83,516                                                                  24,220
023-2307257            81,598                                                                  23,663
023-2265939            80,567                                                                  23,364
023-2309786            81,998                                                                  23,779
023-2291729            94,727                                                                  27,471
023-2097141            67,290                                                                  19,514
023-2159196            91,127                                                                  26,427
023-2074656            85,674                                                                  24,846
023-2130610            89,362                                                                  25,915
023-2238723            91,928                                                                  26,659
023-2146128            68,981                                                                  20,004
023-2283275            92,664                                                                  26,872
023-2041273            67,025                                                                  19,437
023-2210987            74,541                                                                  21,617
023-2053735            85,858                                                                  24,899
023-2023149            66,935                                                                  19,411
023-2007589            88,536                                                                  25,675
023-2229773            90,215                                                                  26,162
023-2134868            87,482                                                                  25,370




                                         27
                                                                                                   Indemnification amount
        FHA                   Outstanding                               Claims paid property       (funds put to better use)
        case                   mortgage            Loss on resale            not resold              29% of outstanding
         no.                   balance            (ineligible cost)      (unsupported cost)           mortgage balance
023-2024394                          67,114                                          19,463 19
023-2229767                          78,660                                                                            22,811
023-2138042                          76,974                                                                            22,323
023-2214184                          78,562                                                                            22,783
022-1826177                         136,176                                                                            39,491
023-1999651                         103,672                                                                            30,065
023-2094536                         Claim 20                    7,135
023-2215217                         111,004                                                                           32,191
Total                            $3,071,858                 $42,759                    $19,463                      $890,839




19
     The Property was conveyed to HUD and has not been resold, the claim is 29% of the loan amount.
20
     This mortgage was terminated (not foreclosed), but prior to termination HUD paid a partial claim on it.

                                                           28
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         29
30
31
Comment 1




            32
Comment 2




            33
Comment 2




            34
Comment 3




            Names have been redacted for privacy reasons.



                                 35
Comment 3




            36
Comment 4




Comment 5




            37
Comment 6




            38
Comment 7-1




              39
Comment 7-1




              40
Comment 7-2




              41
Comment 8




            42
Comment 8




Comment 9




            43
Comment 9




            44
Comment 9




            45
Comment 10




             46
Comment 10




             47
Comment 11




Comment 12




             48
Comment 12




             49
Comment 12




             50
Comment 12




             51
Comment 13




             52
Comment 13




             53
54
Comment 14




             55
Comment 14




             56
Comment 14




Comment 14




             57
Comment 14




             58
Comment 15




             59
Comment 15




             60
Comment 15




             61
Comment 16




Comment 16




             62
Comment 16




             63
Comment 17




             64
Comment 17




Comment 18




             65
Comment 18




             66
Comment 19




             67
Comment 19




             68
Comment 19




             69
70
                           OIG Evaluation of Auditee Comments

Comment 1 We disagree with Suburban’s claim that the results of OIG’s review of 23
          appraisals should not be extrapolated to the 19 other cases set out in the report
          where specific appraisal reviews were not made, but indemnification is
          recommended. In this instance such a conclusion is appropriate, fully supported,
          and logical. The appraisals in question relate to condominium units in two
          complexes. The units in the two complexes were (for all practical purposes)
          identical units in their respective complexes that had the same
          remodeling/conversion work completed and had no special features that would
          differentiate them from any other units in the complexes. They were all sold
          within a relatively short period of time for comparable prices. Accordingly, all
          units in the two complexes, depending upon the number of bedrooms, had
          comparable values at the time of sale. In this regard, sales of units in the two
          properties were used interchangeably, without adjustments, by the two appraisers
          when establishing values for other units in the two complexes, reflecting their
          belief that the units in the respective complexes had equal values. Thus, based
          upon actual property characteristics and actual sales prices, all units in the two
          complexes, not just the 23 we re-evaluated, were overvalued by approximately 40
          percent. This would include the 19 units included in the report whose appraisals
          were not re-evaluated. These overvaluations were reflected in the FHA-insured
          mortgages used to purchase the properties by the borrowers and thus the
          mortgages are significantly overinsured.

              We do concur with Suburban’s comment that OIG’s recommendation for
              indemnification of the 19 cases that are based upon extrapolation should be more
              fully disclosed. To address this concern, we have added a footnote to the lead
              paragraph of finding 1 disclosing this condition.

Comment 2     Suburban contends that it relied on the appraisers’ expertise and experience in
              appraising the properties and, unless their underwriters had a reason to know or
              had doubts about the appraisal report, they had no reason to contest the reports’
              validity or their adherence to HUD FHA guidelines. However, as set out in the
              report, our review of 23 appraisal reports identified obvious documentation errors,
              omissions, and other questionable data such as photographs showing the
              dissimilarity of the comparable units versus the subject units; consistently long
              distances of the comparables from the subject units (different neighborhoods);
              values outside of the neighborhood norms; owner occupant percentages that did
              not meet HUD requirements; unsupported adjustments, etc. These inconsistencies
              and inaccuracies should have been identified during the underwriting and quality
              control processes and alerted Suburban to potential problems with the plausibility
              and consistency of the appraisers’ conclusions, and led to a follow-up to resolve
              the problems identified.

              Had the underwriters followed-up on these obvious inconsistencies and errors
              early on, they would have determined that the appraisals did not provide

                                              71
              reasonable property valuations. For example, the very first appraisal received for
              a unit in these two complexes (related to FHA Case Number 023-1892486)
              contained numerous inconsistencies that should have led the underwriter to
              question its plausibility. This included obviously dissimilar comparable
              properties clearly discernable from the accompanying photographs; comparables
              from outside the subject unit’s neighborhood; an appraised value significantly
              outside the predominate values of the neighborhood; the appraiser’s claim that the
              unit had a covered patio when the photographs clearly showed it did not;
              documentation indicating that “61+/-“ of the 72 units in the complex were rented,
              thus indicating that the complex did not meet HUD’s required 51 percent owner
              occupant level, etc. Had the underwriter followed up on these indicators, it would
              have become clear that the unit was a one bedroom one bath 684 square foot unit,
              not a two bedroom two bath 948 square foot unit as claimed by the appraiser; the
              neighborhood of three of the comparable units was clearly superior to that of the
              appraised unit; and these three comparables were clearly superior in design and
              construction than the appraised unit.

              Further, it would have been determined that the other comparable used, a pending
              sale from the same complex as the appraised unit, was not a three bedroom 1,298
              square foot unit as claimed by the appraiser, but actually a two bedroom 968
              square foot unit (It should be noted that an FHA insured loan for this unit was
              being processed by Suburban at the same time, thus the pending sale). A prudent
              examination of this and other concurrent appraisals, at the start of the sales
              process for the units in these two complexes, would have alerted Suburban to the
              significant overvaluation of the units in these two complexes. In addition, a
              secondary opportunity to evaluate the accuracy of the appraisals presented itself
              when some of the loans in the complexes defaulted within 90 days of loan
              closing. Had Suburban followed its quality control plan and obtained new
              appraisals of the properties supporting these defaulted loans, the initial appraisal
              overvaluation would have been identified. These prudent actions were not taken
              by Suburban and as a result, HUD insured mortgages on 38 properties that were
              overvalued by approximately 40 percent.

Comment 3 We disagree with Suburban’s claim that four “desk reviews” by an independent fee
          appraiser it hired confirmed that the subject properties were properly valued. Our
          analysis of these limited independent desk reviews raised serious concerns relating
          to the review appraiser’s conclusions and accordingly, in our opinion, there is no
          justification for reconsideration of any of the appraisal conclusions resulting from
          our audit.

              The fee review appraiser’s conclusions were based upon the use of the same
              comparable properties used by the original appraiser. The desk reviews of the four
              appraisals involved the use of twelve comparable property sales – seven were units
              within the two subject complexes and the other five claimed comparable properties
              were located in four other condominium complexes (one of the review appraisals is
              not discussed separately as it is an exact duplicate of one of the others, using the

                                               72
              same comparables and adjustments and arriving at the same appraised value). As
              documented in our re-evaluations, the initial appraisals of the units (initial sales) in
              the two complexes resulted in a significant overvaluation of the units in the
              complexes (and artificial market values for all the units in the complexes).
              Accordingly, the use of these sales as comparables in subsequent appraisals would
              result in similar overvaluations, in this instance approximately 40 percent. Because
              of this, any valid reappraisal would not include properties in these two complexes.
              However, the fee review appraiser did not take this into consideration and accepted
              these as comparables. Further, as set out in the audit report, the other five claimed
              comparable properties, which the fee review appraiser also used in his desk reviews,
              were not at all similar to the units in the two condominium complexes. They were
              located in much more desirable and expensive neighborhoods than the subject
              properties, and were not even close to being physically comparable. The use of
              these more expensive, dissimilar comparables contributed to the significant
              overvaluations, which was not recognized by Suburban’s fee review appraiser.

              Additionally, for two of his four reviews, Suburban’s fee review appraiser provided
              two other more recent and “more appropriate comparable sales” which sold for
              significantly more than the comparable sales used in the original appraisal.
              Suburban felt that these sales may have indicated an even higher value for the
              subject properties. However, an inspection of these “comparable” properties again
              found that they were located in completely different, more expensive
              neighborhoods, and were not at all comparable to the subject units. The fee review
              appraiser’s claim that these were more appropriate sales, when in fact they are
              obviously dissimilar, further brings into question the adequateness of the desk
              review appraisals he conducted.

              We also question Suburban’s assertion that its independent review appraiser did not
              work for them. A review of HUD’s database noted that the contracted appraiser had
              conducted at least 19 FHA appraisals for Suburban over the past three years.
              Second, during the exit conference, Suburban professed that its fee reviewer had
              completed field reviews of the original appraisal work. This would require the
              appraiser to personally view and inspect the properties. However, per the exhibits
              provided by Suburban, the reviewer performed only desk reviews not the more
              comprehensive field reviews that Suburban had claimed. In both of these instances,
              Suburban’s incorrect assertions, whether intentional or not, places doubt on the
              validity and accuracy of the reviewer’s work. Other concerns relating to the validity
              of Suburban’s and its fee reviewer’s comments relating to OIG’s evaluation of the
              original appraisals are set out in the response to Comments 7 and 9 below.

Comment 4 Suburban states that up until January 1, 2006, HUD required appraisals of properties
          secured by FHA-insured loans be reflected on the URAR, FNMA Form 1004, but
          that the Condominium Unit Appraisal Report Form, Fannie Mae Form 1073 was
          also acceptable (this statement is contradictory). In our opinion, the required use of
          the condominium appraisal report prior to January 2006 (Form 1073) is ambiguous
          (see Mortgagee Letter 97-22). However, its use for evaluating condominiums would

                                                73
            have been prudent as it provides additional information necessary to properly
            determine the plausibility and consistency of the appraisers’ conclusions that are not
            available on FNMA Form 1004 (which was designed primarily for single family
            homes). In this regard, the appraiser who provided the first nine appraisals on the
            first of the two subject condominiums did use FNMA Form 1073 (the second
            appraiser chose to use FNMA Form 1004). A close review of the information
            provided on these initial nine appraisals would have brought into question the units’
            appraised values when compared to the predominant values of the area; the owner
            occupancy percentage in the complex; individualized information relating to
            common elements, etc. In that the other appraiser did all Suburban’s appraisals for
            the second condominium complex using FNMA Form 1004 rather than FNMA
            Form 1073, this type of information was not available. However, due to the
            ambiguousness of the rules relating to required use of the Condominium Unit
            Appraisal Report, our report has been changed to reflect that FNMA Form 1073 was
            not required to be used for appraisals of condominium units.

Comment 5   Suburban claimed that obtaining certifications from the seller (interested third
            party) stating that the condominium complexes met the 51 percent owner
            occupancy level required by HUD demonstrated its compliance with this
            requirement. However, this certification was contradicted by other information in
            the files which indicated that this owner occupancy level was not met. For
            example, the first nine appraisal reports Suburban received for these complexes
            (which were completed on FNMA Form 1073) clearly showed that this
            requirement was not met (the first appraisal showed that 61+/- of the 72 units
            were rented). This demonstrates Suburban’s lack of due diligence in reviewing
            available information to confirm the required owner occupant level was met.

Comment 6   Suburban stated that it relied on HUD’s website to determine whether the first of
            the two condominium complexes had been approved by HUD for FHA insurance,
            and assumed that if the complex was listed on the website then the one year
            cooling off period had been met. HUD staff at the Santa Ana Home Ownership
            Center informed us that review of the website is the preferred method for lenders
            to ensure the condominiums are a HUD approved project and meet all
            requirements. However, the condominium approval dates for converted
            apartments listed on the website sets out the start of the one year cooling off
            period, not the date units in the complexes are eligible for FHA insurance. HUD
            staff went on to state that information listed on the website for the complex in
            question was not complete and did not provide the additional information
            normally supplied that would provide the date that the complex actually would
            have met the one year requirement. HUD staff stated that they would not fault the
            lender for relying on the information listed on HUD’s website. Nevertheless,
            Suburban had information in its origination files that clearly showed that the
            “apartment complex” was purchased by the developer in March 2003. If the
            developer had all the information and application forms ready for submittal to
            HUD in the month they purchased the property (not the norm) then at the earliest,
            February 2004 would have been the end of the waiting period, not August 2003 as

                                              74
               shown on HUD’s website. A prudent lender would have followed up on this
               contradictory information and would have determined that the waiting period had
               not been met.

Comment 7-1 In almost every case, the original appraiser selected comparable units that were
            outside of the subject’s area, overvalued units in the subject complexes or units that
            were developed and sold by the same developer/seller. In our opinion, the selection
            of units outside of the subject’s neighborhood could occur in a few of the cases. But
            when it is the norm, as in these appraisals, Suburban should have been alerted to the
            possibility that the comparable units were not appropriate. Action could then have
            been taken to determine whether there were comparable units within the
            neighborhood. As detailed in the report, there were many comparable sales within
            the neighborhood which could have been used, and which would have provided
            more valid estimates of value. Further, had Suburban verified the validity of the
            appraisers’ assertion that the units were “good indicators of value based on similar
            design, size, remodel condition and appeal,” easily determinable through
            examination of the submitted photos, they would have found that the comparable
            units used were completely dissimilar properties. It would have been clear that the
            properties were not of the same type, design, style or appeal, and were in much more
            expensive and exclusive neighborhoods than the subject properties which were
            located in high traffic, high crime areas. This obvious information also should have
            alerted Suburban’s fee review appraiser to the fact that the selected comparable units
            were not comparable (including the two substitute comparable properties he
            identified). Had the fee review appraiser inspected the properties he would have
            realized that the units were not valid comparables and accordingly should not have
            been used to establish values for the units being appraised.

Comment 7-2 Our assessment of the valuation adjustments found that the appraisers were
            inconsistent in valuing amenities often increasing or decreasing the dollar amount on
            different appraisals for the same amenity. These actions lead us to believe the
            adjustments were used to support a predetermined value. One small value amenity
            which we identified was the appraisers’ inconsistent claims that the units in the
            complexes had porches when in fact the porches were simply covered walkways
            which should not have been compared equally to comparable units which had true
            porches. Suburban’s fee reviewer asserted that one of the appraised units he
            examined required an upward valuation adjustment for a porch (covered walkway)
            as the comparable property had no porch. However, in our opinion the
            overhang/walkway is not considered a covered porch, let alone a covered patio as
            claimed by one of the appraisers. This is clearly evident from the photographs in the
            appraisal reports. But of even more concern is the lack of consistency and validity
            of claimed property conditions, features and amenities provided by the appraisers.
            For example, in the case cited by Suburban fee review appraiser (FHA Case No.
            023-2159234) the appraiser made a $1,000 upward adjustment to one of the
            comparables (which was from the second of the two subject complexes) saying it did
            not have a covered porch whereas the property being appraised (and the two other
            comparables from the first complex) were identified as having covered porches.

                                               75
              However, the same appraiser had performed previous appraisals at the second
              complex and in those appraisals he stated the units had covered porches, which
              resulted in an increased appraised value for the units.

              These types of inconsistencies, although the individual value may be small, raises
              concerns about the quality of the appraisals and indicates the appraisers were
              manipulating claimed amenities and price to reach a predetermined unit value.
              Suburban’s lack of due diligence failed to identify the conflicting information
              provided by its selected appraisers related to the existence or non-existence of
              porches and covered patios in the subject units. These discrepancies should have
              been identified through a brief examination of the appraisal photos which clearly
              showed that the units in the two projects had no visible differences in regards to
              purported porches. This is just one of many inconsistencies in value adjustments
              made by the two appraisers. Other claimed amenities affecting value that were listed
              on the appraisal reports but which did not exist included claimed foyers in some of
              the units; covered patios in the first complex; a community swimming pool in the
              second complex; and a greenbelt which was simply crushed rock. Suburban failed
              to identify these obvious errors during its underwriting and quality review processes.

Comment 8 See Comments 3 and 7-1

Comment 9 Suburban contends that the appraisers’ value adjustments related to the remodeling
           work done to the condominium units were supported and justified. In this regard, all
           the units in the two condominium complexes were supposedly remodeled and
           provided with additional amenities; however the appraisers’ valuation adjustments
           for this work was not consistent, fluctuating excessively, from appraisal to appraisal
           with no documented explanation for the fluctuations. Adjustments to reflect this
           claimed remodeling ranged from $0 to $12,000. The $12,000 adjustment, which
           was twice HUD’s guideline for the maximum line item adjustment, had no support,
           simply a statement saying the comparable unit’s condition was inferior. Such a
           major unsupported adjustment should have alerted Suburban to potential problems
           with the appraisal. However, Suburban simply accepted the appraiser’s weak
           explanation that the subject unit was completely remodeled and the comparable was
           inferior. Had Suburban followed up, it would have noted that not only was the
           adjustment not supported, but that the comparable unit was clearly superior to the
           subject (a photograph of this comparable unit is provided on page 11 of the report –
           FHA Case No. 023-2171644).

              In another earlier appraisal, the appraiser provided an unsupported adjustment for
              the total remodeling work for the subject unit of $3,000 as the comparable unit’s
              condition was only “good” (FHA Case No. 023-2033645). Suburban’s review
              appraiser claimed this was supported as the appraiser had provided a general listing
              of the remodeling work on page 1 of the appraisal. However, simply listing claimed
              remodeling work does not show how the work relates to the comparable unit (which
              was again clearly superior to the subject) nor support the value. In this regard, on
              other appraisals the appraiser had made no adjustment when he listed the

                                               76
comparable units’ condition as good. This conflicts with the previous case discussed,
where a $3,000 adjustment was made for a unit listed in good condition. These wide
ranges in condition adjustments for the appraisals - $0 to $12,000 – raises serious
concerns relating to the appraisers’ use of the condition adjustments. However,
these inconistencies in adjustments were not identified and addressed by Suburban.

Had Suburban conducted reasonable due diligence reviews or followed their quality
assurance plan and obtained reappraisals for loans in default, they would have
discovered that not only were the condition adjustments made for the remodeling
work not supported, but that the remodeling work was not completed properly and
many of the remodeling items listed on the appraisal report were not done at all. For
example, in one complex dual pane energy efficient windows were supposed to be
part of the remodeling job; we found only one unit had the work completed, none of
the other units’ windows were replaced. In other instances, the appraiser lists the
bathroom fixtures as new, but the units we inspected did not have “brand new
fixtures.” It appears the remodeling company tried to refurbish some of the
bathroom fixtures by painting over them. It is hard to conceive how the appraiser
determined a painted tub to be a new bathroom fixture.

In regards to open construction permits for the complexes, the units were not
permitted individually because it would not have been cost effective (100 units X
$200 [approximate permit cost] = $20,000). In such cases, where several units are
being renovated in one building, the accepted method, according to City of Phoenix
officials, is to apply for a building permit that covers the entire complex. In this
case, each building (seven total) were issued a permit that listed the units under each
building that required each discipline (mechanical, structural, electrical and
plumbing) to be inspected and certified complete by a city inspector. Accordingly,
Suburban’s claim that remodeling permits were never issued for any “unit” in the
Camelback property is technically correct as the permits were for the buildings in
which the units were located. However, each unit within each building has to pass
inspection to close out the permit. Thus, Suburban’s statement, provided by its
review appraiser, relating to individual unit permits has no validity. Additionally,
Suburban’s review appraiser’s claim that “the city will not be required to make
additional inspections of the condominium units” also is not true. During our audit,
supervisory inspectors from the City of Phoenix, Development Department provided
us with city completion certification requirements and specifically verified which
units in the two complexes were not complete and still required a final inspection to
receive a Certificate of Completion at the time of our audit. There has been no
change and all the Camelback units listed in our draft audit report as being subject to
final inspection by the city have still not received final completion certifications and
will require final inspections prior to close out of the construction permits.
Accordingly, Suburban’s fee review appraisers claim that there currently are no open
permits for the Camelback project is not true. As discussed in the report, this open
permit information is easily accessible to the public on the city’s website.




                                  77
              Additionally, construction permits for the Camelback projects were not issued until
              October 12, 2004, and then only because the city forced the developer to obtain them
              when it was discovered that significant rehabilitation work was being done without
              the required permits. The appraiser should have been aware of problems with the
              permit process as the work would have been ongoing when he performed his initial
              appraisals. Because of the type of work being done (plumbing, electrical, structural,
              and mechanical), it would have been apparent that permits should have been
              obtained and posted on the site. Once the city forced the developer to obtain the
              permits, the permits would have been posted on the site and would have been clearly
              visible when the appraiser conducted his inspections of the units.

Comment 10 Suburban claimed that its underwriters reviewed the appraisals in accordance with
           HUD valuation policy and determined the appraisers’ conclusions were acceptable.
           However, as discussed in OIG’s responses to comments 3 through 9 above, and in
           the report, Suburban’s underwriters did not use due diligence when reviewing the 38
           appraisals related to the two condominium projects discussed in the report. Had they
           done so, the obvious errors, misstatements and inconsistencies in the appraisals
           would have been identified early on and timely action could have been taken to
           correct the identified inaccuracies and avoid future problems. This was not done and
           HUD has been placed at risk for 38 FHA-insured mortgages supported by properties
           that were overvalued by approximately 40 percent.

Comment 11 Although Suburban addresses the concerns set-out in the report by type of
           deficiency, the deficiencies should be addressed in total as they relate to each of
           the individual loans. This is necessary because of risk layering, i.e. one
           deficiency affecting a loan by itself may not affect loan approval, whereas if
           combined with other deficiencies it could affect final loan approval. We have
           provided such an analysis in Appendix E of the report for each of the loans in
           question.

Comment 12 FHA Case No. 022-1826177 - HUD regulations require that the lender establish
           an overall pattern of credit behavior. Basing the borrowers’ overall credit history
           on a single, limited (11 months) instance of on-time rental payments does not
           constitute prudent lending practices. This is especially true in this instance where
           one of the borrower’s past collection accounts was related to apartment rental.
           Furthermore, the borrowers did not have any cash reserves as claimed by
           Suburban. The reserve balance of $1,100 is simply a snapshot at one point in
           time right after the borrower received a paycheck. An analysis of the borrowers’
           savings history and earning and debt payment patterns show that the borrowers
           were only earning enough to meet daily expenses, not accumulate any reserves or
           cope with a 40 percent increase in their housing expense. Finally, we disagree
           with Suburban’s claim that the borrowers’ debt payments show a positive attitude
           towards satisfying debts. The payments were made primarily during the loan
           origination process and appear to be made out of necessity and appearance rather
           than a positive effort to honor financial obligations.



                                               78
              FHA Case No. 023-2215217 - Suburban’s claim that the borrower’s rental history
              is “positive” is not supported by information in the loan origination file. The
              borrower’s apartment rental history of only 11 months and a court ordered
              judgment from the same apartment complex contradicts Suburban’s claim. The
              borrower’s explanation of this judgment does not provide any details of what
              occurred, only that the apartment manager will provide a satisfactory history of
              payment. Suburban’s claim that the borrower also made 15 months of timely
              payments on another account is not supported by the credit report which shows an
              opening and a date of last activity on the same date indicating there was no
              activity on the account. Additionally, the borrower’s eight remaining accounts,
              five collections, two court claims, and only one current account, shows a
              significant problem regarding the borrower’s attitude towards meeting financial
              obligations. His explanation that he was hurt on the job may have affected the
              current accounts, but his credit problems started well before the accident.
              Suburban’s claim that the borrower had cash reserves of $2,000 is not accurate.
              This balance represents cash available on one day right after a deposit into the
              borrower’s checking account, but just three days earlier the borrower had less
              than $6.00 in this same account. Thus, in reality, the borrower had no reserves
              and was earning only enough to meet his daily living expenses.

Comment 13 FHA Case No. 022-1826177 - The basis for verifying the borrower’s income is to
           establish the amount and the likelihood of its continuance to determine the
           borrower’s capacity to repay the mortgage debt. The borrower’s frequent
           employment changes coupled with a 10 month gap in employment during the 26
           months prior to loan origination contradicts Suburban’s claim that the borrower
           had income stability. Further, the borrower, although his four jobs during this
           period of time were in construction, had no advance in income and the jobs did
           not involve the same line of work (i.e operator, construction operator, plumbing).
           This combined with the 10 month gap in employment (during which time the
           borrower claimed to have held odd jobs to pay his bills) did not establish the
           income stability required for loan approval.

Comment 14 FHA Case No. 022-1826177- Suburban claimed that although the borrowers’ front-
           end debt-to-income ratio exceeded HUD’s guidelines by 6.44 percent, there were
           adequate factors, such as overtime income, no other monthly recurring obligations,
           and ability to save, to compensate for this. However, contrary to these statements,
           analysis of the borrowers’ bank account shows the borrowers had no cash reserves (a
           one day balance of $1,100 on payday is not cash reserves) and were earning only
           enough income to meet monthly living expenses; the borrower’s employment
           verification did not show that there would be any overtime income; and their
           monthly housing expense would be increasing by 40 percent. Thus, there were no
           valid, documented compensating factors to justify exceeding HUD’s debt-to-income
           ratios.

              FHA Case No. 023-2094536 - Suburban did not provide any credible compensating
              factors to support exceeding HUD debt-to-income ratio guidelines or to compensate

                                              79
              for expected future increases in the mortgagor’s monthly mortgage payment
              resulting from the use of the 2 - 1 interest rate buy-down program. Suburban
              claimed that a worksheet in the loan file claiming to show required future child
              support payments is sufficient to meet the documentation requirements for
              compensating factors. However, the worksheet has nothing to support its validity or
              the probability that any child support will ever be received (i.e. there is no history).
              Accordingly, the child support worksheet does not meet the documentation
              requirements set out in HUD Handbook 4155.1 REV-5 paragraph 2-13.

              FHA Case No. 023-2182913 - Suburban’s response satisfied our concerns and we
              have removed this loan from our report.

              FHA Case No. 023-2181591- Suburban’s response satisfied our concerns and we
              have removed this loan from our report.

Comment 15 FHA Case No. 023-2033645 - Suburban did not establish that the eventual increase
           in mortgage payments would not adversely affect the borrower’s ability to pay.
           Suburban states that the borrower will likely earn overtime and bonus income to
           cover the increased housing payments; however, the verification of employment is
           specifically marked “no” in relation to whether it is likely that overtime and bonuses
           will continue. The possibility of a small increase in pay mentioned by Suburban
           would not offset the substantial increase in mortgage payments that would occur
           when the interest rate buy-down expires. The borrower had no additional training or
           education that would lead to increased pay or a history of increased pay through
           advancement. Accordingly, there were no documented factors that would mitigate
           the effects of the expiration of the interest rate buy-down and the increased mortgage
           payment.

              FHA Case No. 023-2094536 - Suburban’s claim that a copy of a child support
              worksheet in the file (not an official document) relating to the possibility of future
              child support payments is insufficient to demonstrate the potential for additional
              income to support the eventual increase in mortgage payments resulting from the
              expiration of the 2-1 interest rate buy-down (also see comment 14). Such nebulous
              information does not document in any manner as to whether the order was finalized
              and if so whether such payments will ever be received by the borrower.

              FHA Case No. 023-2099918 - Suburban claimed that the borrower’s verification of
              employment showed a history of increasing annual income, a likelihood of earning
              overtime income and a projected pay increase of three percent within three months
              of closing. Suburban felt that this demonstrated the potential for increased income
              that would offset the scheduled mortgage payment increases. However, when the
              underwriter approved the loan these claimed compensating factors were not
              addressed in the remarks section of the Mortgage Credit Analysis worksheet as
              required. Further, in our opinion, file information relating to these claims did not
              meet HUD requirements for documenting the potential for increased income, i.e.,
              job training, education, or a history of advancement in the borrower’s career with

                                                80
              consequent increases in pay. In this regard, the amount of potential overtime income
              was not documented and pay increases appeared to be simply cost of living
              increases, not the result of the borrower’s advancement in her profession. There
              were no other documented factors that would have compensated for the mortgage
              payment increases, which, after inclusion of outstanding debt not considered by
              Suburban, would have resulted in total debt to income ratios of approximately 50
              percent. This is significantly above HUD’s standard of 41 percent.

Comment 16 FHA Case No. 023-2033645 - The information provided by Suburban does not
           confirm that the borrower paid the $427.56 at escrow closing. The HUD-1 and
           escrow ledger only show that this money was provided at closing on behalf of the
           buyer. There is no copy of the escrow receipt or check to show who actually
           provided the funds. This is especially critical because at April 12, 2004, one month
           before closing, the borrower had only $19.47 in her bank accounts. Thus, Suburban
           did not properly verify that the funds were available, and used to make the $427.56
           payment received by the title company at loan closing.

              FHA Case No. 023-2099918 - Suburban states that the HUD-1 and the title
              company’s escrow ledger verified receipt of $543.66 in funds from the borrower at
              closing ($480 and $63.66) and an additional $25 in earnest money. However, these
              documents only verify that funds were provided on behalf of the borrower.
              Documents in Suburban’s file only verify that the borrower made the initial $25
              earnest money payment. Further, a review of the sales contract and amendments
              show that the seller was to pay $480 at closing on behalf of the borrower for the
              appraisal fee and two months HOA fees. This indicates that the borrower did not
              make the $480 payment shown on the HUD-1. Additionally, the HUD-1 shows that
              $727 was due at escrow to satisfy the borrower’s four delinquent accounts, not $462
              as Suburban claims. In summary, Suburban documented only $25 in borrower
              payments to meet closing requirements and satisfy the $727 in debts to be paid off at
              closing.

              FHA Case No. 023-2215217 - Suburban claimed that it had no reason to question
              the source of the $653 used to pay off the borrower’s debts at closing since he had
              sufficient documented assets (a bank balance of $2,132.73) to cover payment of
              the debts. However, the document that Suburban claimed to be a bank statement
              was actually just a computer-generated cash flow statement that did not have the
              borrower’s account number or the identity of the financial institution. HUD does
              not recognize such a document as a legitimate form of fund verification. Further,
              even if this document was to be used, it did not demonstrate that the borrower
              would have sufficient funds available to payoff these debts at closing. The
              $2,132.73 balance shown on this document represents cash available on one day
              right after a deposit into the borrower’s checking account. But this document
              showed that just three days earlier the borrower had less than $6.00 in this same
              account and that he was often overdrawn on the account. Thus, in reality the
              borrower had no reserves and was earning only enough to meet his daily living
              expenses. Thus, it is questionable as to whether he would have funds available to

                                               81
               meet closing requirements two weeks later. As set out in the report, the borrower
               stated he did not provide the funds used to pay off the $653 of debt at closing.
               Suburban also claimed that it instructed the settlement agent to verify source and
               payoff of the $653 and that when the HUD-1 Settlement Statement reflected
               receipt of funds from the borrower it assumed this had been done. However, the
               HUD-1 only shows receipt of funds not the source of the funds and HUD looks to
               the lender, not the settlement agent, to ensure that the borrower has provided the
               required funds.

Comment 17 Suburban acknowledged that it received some verification documents from interested
           third parties, that it has reminded employees of the importance of properly verifying
           all faxed documents, and that the identified deficiencies with faxed documents will
           not reoccur. However, Suburban went on to state that in many of the instances
           where there was third party involvement with verification documents, other
           additional information was obtained which verified the information faxed by the
           third parties. We do not concur with Suburban’s opinion that the other
           documentation it cited, untitled and unidentifiable summary banking printouts and
           credit reports, serve to replace/verify the type of information that was faxed to it by
           third parties, i.e. earnest money payment documentation, W-2s, pay stubs, other
           employment information, explanations for poor credit, rental verifications, divorce
           settlements, schooling, etc. Such documentation is susceptible to falsification and
           thus must be provided to the lender without passing through the hands of an
           interested third party.

Comment 18 We commend Suburban for taking quick corrective action after deficiencies in the
           implementation of its quality control plan were brought to its attention during our
           audit.

Comment 19 Suburban’s concerns relating to OIG’s reporting process are not matters to be
           addressed in this report, but matters which should be raised in a different forum.




                                               82
                                 APPENDIXES

Appendix C-1                                                   Page 1 of 2

               SCHEDULE OF APPRAISAL DEFICIENCIES
                           Original
  FHA case no./notes    Mortgage amount    A   B   C   D   E    F      G
023-1892486 1          $     65,927        X   X   X   X   X    X      X
023-1966202 1          $     68,021        X   X   X   X   X    X
023-1971458 1          $     67,890        X   X   X   X   X    X
023-1984859 1          $     90,560        X   X   X   X   X    X
023-2033645 1 *        $     92,140                X   X   X    X
023-2099918 1 *        $     92,140                X   X   X    X
023-2171644 1          $     71,274                X   X   X    X
023-2196544 1          $     70,800                X   X   X    X
023-2209240 1 *        $     95,050                X   X   X    X
023-2159234 1          $     97,290                X   X   X    X
023-2157852 1          $     80,500        X       X   X   X    X
023-2238326 1          $     80,500        X       X   X   X    X
023-2273203 1          $     83,022        X       X   X   X    X
023-2300236 1          $     83,225        X       X   X   X    X
023-2300111 1          $     82,740        X       X   X   X    X
023-2290180 1          $     84,680        X           X   X    X
023-2307257 1          $     82,682        X       X   X   X    X
023-2265939 1          $     82,352        X       X   X   X    X
023-2309786 1          $     82,925        X       X   X   X    X      X
023-1952906 2          $          -            X   X   X   X    X
023-1966391 2          $          -        X   X   X   X   X    X
023-1978990 2          $          -        X   X   X   X   X    X
023-1989669 2          $          -        X   X   X   X   X    X
023-2291729 3          $     96,320
023-2097141 3          $     69,830
023-2159196 3          $     94,080
023-2074656 3          $     90,200
023-2130610 3          $     92,140
023-2238723 3          $     94,080
023-2146128 3          $     71,125
023-2283275 3          $     94,405
023-2041273 3          $     69,830



                                          83
                              Original
  FHA case no./notes      Mortgage amount        A       B      C       D      E       F       G
023-2210987 3            $      76,665
023-2053735 3            $      90,200
023-2023149 3            $      69,830
023-2007589 3            $      92,364
023-2229773 3            $      92,440
023-2134868 3            $      90,839
023-2024394 3 **         $      69,830
023-2229767 3            $      80,800
023-2138042 3            $      79,530
023-2214184 3            $      80,800
Total                    $   3,149,026          16       8      22     23      23     23       2



   A. The subject unit did not meet the 51 percent owner occupancy requirement.
   B. The subject unit was sold before completion of the one-year cooling-off period.
   C. The claimed remodeling work was not supported and/or not certified complete by the
      City of Phoenix.
   D. One or more comparable unit(s) was not similar in design or location or was identified by
      OIG as being overvalued by the subject appraiser(s) in a previous appraisal.
   E. There was an unsubstantiated adjustment or lack of value adjustment for one or more
      comparable unit(s).
   F. The appraised value is far below or far exceeds the predominate value for the area with
      no explanation.
   G. The subject property’s characteristics were incorrectly identified.

   1 – These 19 mortgages were included in our appraisal review and either had claims paid on
   them by HUD or remain HUD insured.
   2 – These four mortgages were included in our appraisal reviews to assist us in establishing
   values for the two condominium projects but have been terminated and are no longer HUD
   insured.
   3 – Appraisals related to these 19 active HUD-insured mortgages originated by Suburban
   were not specifically included in our appraisal review. However, as discussed in finding 1,
   property values for all units in the two subject apartment complexes were overvalued by
   approximately 40 percent because of actions taken in establishing initial unit values in these
   two projects. Accordingly, these 19 units and the related HUD-insured mortgages are also
   overvalued by approximately 40 percent.

   * HUD has paid claims on these three mortgages and resold the properties.
** Claim has been paid and the property conveyed to HUD




                                               84
                                    .   APPENDIXES

Appendix C-2

                    SCHEDULE OF LOAN DEFICIENCIES

                    Original
                    Mortgage
  FHA case number   amount      A        B         C       D         E        F        G
  022-182617-7      $139,707    X        X         X                          X        X
  023-199965-1      $107,043    X                  X                                   X
  023-203364-5*      $92,140    X        X         X       X         X        X
  023-209453-6***   $114,973                       X       X         X                 X
  023-209991-8*      $92,140    X                          X         X        X        X
  023-220924-0*      $95,050    X        X         X                          X        X
  023-221521-7      $113,883    X                  X                 X        X
  Total             $754,936    6        3         6        3        4        5        5


  A.   Unacceptable credit history, inadequate analysis of credit
  B.   Unstable employment, income stability not established
  C.   Inaccurate/excessive debt-to-income ratios without valid compensating factors
  D.   Inappropriate use of the buy-down rate
  E.   Excess and/or ineligible seller contributions
  F.   Interested third party handled loan documents
  G.   Did not reverify loan documents during quality control review process

  * Problems with the appraisal and the appraisal review also noted – see finding 1 and
  schedule C-1. HUD has paid claims on these three mortgages and resold the properties.
  ** Claim has been paid and property conveyed to HUD and resold.
  *** Loan has been terminated. However, HUD paid a partial claim of $7,135 prior to
  termination.




                                              85
                                       APPENDIXES

Appendix D

           NARRATIVE CASE SUMMARIES – APPRAISALS

                                                                                                D-01
HUD case number:               023-1892486 refinanced as 023-2299109
Loan amount:                   $65,927
Settlement date:               October 26, 2005
Status:                        Current

The appraisal misrepresented the subject unit’s size and did not use appropriate comparable units
and valid adjustments when establishing the unit’s appraised value. The appraiser’s
misrepresentation of the subject and comparable units led to a significant overvaluation of the
subject property and a corresponding excessive FHA-insured mortgage. In the opinion of the
OIG appraiser/analyst, this unit should have appraised at approximately $50,000, not the $70,000
used by Suburban in establishing the maximum insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was completed in accordance with outstanding city
building permits and that necessary occupancy permits were issued. The permits remain open,
no occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, excessive values in
relation to predominant values in the neighborhood, and the project’s failure to meet the 51
percent owner occupancy, excessive distance from comparables to the subject unit, etc.

The Subject Property’s Characteristics Were Not Correctly Identified
Uniform Standards of Professional Appraisal Practice (USPAP) standard 1. The appraiser
erroneously appraised the unit as a two-bedroom, two-bath, 968-square-foot unit. The unit is
actually a one-bedroom, one-bath, 684-square-foot unit.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1 paragraph 4-6A2. The OIG appraiser/analyst noted that the
comparable units used to establish value for the subject unit (in addition to being two-bedroom,
two-bath, not one-bedroom, one-bath units) were superior to the subject unit in gross living area,
age, exterior construction, upkeep, and location and had better amenities, green belt landscaping,
and ample parking for residents and guests. The appraiser apparently went outside the area to
select larger, superior units in an attempt to validate the sales price of the subject unit. Suburban
should have questioned the use of comparables from outside the area.

                                                 86
Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. The appraiser arbitrarily assigned a $1,500 value adjustment for the remodeling work
without providing any supporting documents to justify the value. Had the appraiser researched
the extent and cost of the work completed, he would have found that the remodeling work
required city construction permits to ensure that it met the city’s building code standards.
Records show that the final inspections were not completed (open). According to the City of
Phoenix, certificates of completion were never issued for the unit; therefore, it did not have
occupancy authorization. The city will need to make additional inspections to close open
permits, and if defects in the rehabilitation work are noted, the current owner of the unit will be
responsible for completing the work.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units had, should have been taken into consideration in establishing the unit’s
appraised value.

The Unit Was Valued in Excess of the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $70,000 and the predominant value for the
area of $55,000. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The seller’s representative certified that the
condominium project was 51 percent owner occupied at the time of the sale. However, as
indicated in part II, “Valuation Condition 13,” of the appraisal report, the condominium project
did not meet the 51 percent owner occupancy requirement, or it could not be determined.
Further, the appraiser noted in the “Project Improvements” section of the appraisal that 61 (84.72
percent) of the 72 total units in the condominium project were being rented. Thus, the owner
occupancy level did not meet the 51 percent requirement as certified. This matter should have
been addressed by Suburban during the underwriting process.




                                                 87
                                                                                              D-02
HUD case number:              023-1966202
Loan amount                   $68,021
Settlement date:              January 15, 2004
Status:                       Current

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $50,000, not the $70,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was completed in accordance with outstanding city
building permits and that necessary occupancy permits were issued. The permits remain open,
no occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, excessive values in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy excessive distance from comparables to the subject unit, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that two of
the comparable units used to establish value for the subject unit were superior to the subject in
gross living area, age, exterior construction, upkeep, and location and had better amenities, green
belt landscaping, and ample parking for residents and guests. The appraiser apparently went
outside the area to select larger, superior units in an attempt to validate the sales price of the
subject unit. Suburban should have questioned the use of comparables from outside the area.
Additionally, the other comparable unit used is from the same complex and earlier the same
appraiser wrongly appraised it as a two bedbroom unit when it was actually a one bedroom unit
(see Appendix D-01). Thus, the overvalued unit was used as a comparable to overvalue this and
other one bedroom units in the complex.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG 1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. The appraiser arbitrarily assigned a $3,000 value adjustment for the remodeling work
without providing any supporting documents or discussion to justify the value. Had the
appraiser researched the extent and cost of the work completed, he would have found that the
remodeling work required city construction permits to ensure that it met the city’s building code
standards. Records show that the final inspections were not completed (open). According to the
City of Phoenix, certificates of completion were never issued for the unit; therefore, it did not
have occupancy authorization. The city will need to make additional inspections to close open

                                                 88
permits, and if defects in the rehabilitation work are noted, the current owner of the unit will be
responsible for completing the work.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The appraiser arbitrarily assigned a $2,000
adjustment for inferior interior work without providing any supporting documents or discussion
to justify the value. Additionally, the building’s design uses the upper level walkways and roof
that extend over the lower floor’s entry points, which the appraiser inappropriately characterized
as a covered porch. This lack of a covered porch, which the comparable units had, should have
been taken into consideration in establishing the unit’s appraised value.

The Unit Was Valued in Excess of the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $70,000 and the predominant value for the
area of $55,000. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The seller’s representative certified that the
condominium project was 51 percent owner occupied at the time of the sale. However, as
indicated in part II, “Valuation Condition 13,” of the appraisal report, the condominium project
did not meet the 51 percent owner occupancy requirement, or it could not be determined.
Further, the appraiser noted in the “Project Improvements” section of the appraisal that 61 (84.72
percent) of the 72 total units in the condominium project were being rented. Thus, the owner
occupancy level did not meet the 51 percent requirement as certified. This matter should have
been addressed by Suburban during the underwriting process.




                                                 89
                                                                                                   D-03
HUD case number:                023-1971458 refinanced as 023-2416998
Loan amount                     $67,890
Settlement date:                December 27, 2006
Status:                         Current

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $50,000, not the $70,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was completed in accordance with outstanding city
building permits and that necessary occupancy permits were issued. The permits remain open,
no occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, excessive values in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy, excessive distance from comparables to the subject unit, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that the
comparable units used to establish value for the subject unit were superior to the subject in gross
living area, age, exterior construction, upkeep, and location and had better amenities, green belt
landscaping, and ample parking for residents and guests. The appraiser apparently went outside
the area to select larger, superior units in an attempt to validate the sales price of the subject unit.
Suburban should have questioned the use of comparables from outside the area.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG 1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. The appraiser arbitrarily assigned a $3,000 value adjustment for the remodeling work
without providing any supporting documents or discussion to justify the value. Had the
appraiser researched the extent and cost of the work completed, he would have found that the
remodeling work required city construction permits to ensure that it met the city’s building code
standards. Records show that the final inspections were not completed (open). According to the
City of Phoenix, certificates of completion were never issued for the unit; therefore, it did not
have occupancy authorization. The city will need to make additional inspections to close open
Permits, and if defects in the rehabilitation work are noted, the current owner of the unit will be
responsible for completing the work.




                                                  90
An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The appraiser assigned a $2,000 adjustment to
the date/time because “[a]ccording to the sales agent, comparable #1 was sold as a ‘Pre-Grand
Opening’ sale. Since that time, there has been a $2,000 price increase on the subject’s model”;
however, there is no market support provided for the adjustment. Additionally, the building’s
design uses the upper level walkways and roof that extend over the lower floor’s entry points,
which the appraiser inappropriately characterized as a covered porch. This lack of a covered
porch, which the comparable units had, should have been taken into consideration in establishing
the unit’s appraised value.

The Unit Was Valued in Excess of the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $70,000 and the predominant value for the
area of $55,000. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The seller’s representative certified that the
condominium project was 51 percent owner occupied at the time of the sale. However, as
indicated in part II, “Valuation Condition 13,” of the appraisal report, the condominium project
did not meet the 51 percent owner occupancy requirement, or it could not be determined.
Further, the appraiser noted in the “Project Improvements” section of the appraisal that 61 (84.72
percent) of the 72 total units in the condominium project were being rented. Thus, the owner
occupancy level did not meet the 51 percent requirement as certified. This matter should have
been addressed by Suburban during the underwriting process.




                                                 91
                                                                                              D-04

HUD case number:              023-1984859
Loan amount:                  $90,560
Settlement date:              February 12, 2004
Status:                       Delinquent

The appraiser did not use appropriate comparable units when establishing the unit’s appraised
value. The appraiser’s misrepresentation of the subject and comparable units led to a significant
overvaluation of the subject property and a corresponding excessive FHA-insured mortgage. In
the opinion of the OIG appraiser/analyst, this unit should have appraised at approximately
$59,000, not the $93,000 used by Suburban in establishing the maximum insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was completed in accordance with outstanding city
building permits and that necessary occupancy permits were issued. The permits remain open,
no occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, excessive values in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy, excessive distance from a comparable to the subject unit, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that the
comparable unit used to establish value for the subject unit was superior to the subject in gross
living area, age, exterior construction, upkeep, and location and had better amenities, green belt
landscaping, and ample parking for residents and guests. The appraiser apparently went outside
the area to select a larger, superior unit in an attempt to validate the sales price of the subject
unit. Suburban should have questioned the use of a comparable from outside the area. The other
two comparables used were previous sales from the same condominium project as the subject.
Our review of the appraisals related to these two sales indicated that the units were overvalued
by approximately 40 percent. Thus, use of them as comparables in subsequent appraisals
resulted in similar overvaluations.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would have
found that the remodeling work required city construction permits to ensure that it met the city’s
building code standards. Records show that the final inspections were not completed (open).
According to the City of Phoenix, certificates of completion were never issued for the unit;
therefore, it did not have occupancy authorization. The city will need to make additional
inspections to close open permits, and if defects in the rehabilitation work are noted, the current



                                                92
owner of the unit will be responsible for completing the work.An Adjustment Was Needed to
Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The appraiser arbitrarily assigned a $2,000
adjustment for inferior interior without providing any supporting documents or discussions to
justify the value. Additionally, the building’s design uses the upper level walkways and roof that
extend over the lower floor’s entry points, which the appraiser inappropriately characterized as a
covered porch. This lack of a covered porch, which the comparable unit had, should have been
taken into consideration in establishing the unit’s appraised value.

The Unit Was Valued in Excess of the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $93,000 and the predominant value for the
area of $55,000. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3 B. The appraiser indicates in the “Project
Improvements” section of the appraisal that of the 72 total units in the condominium projects,
about 62 (86.11 percent) had been sold. However, the appraiser negates this by indicating in part
II, “Comprehensive Valuation Package under Valuation Condition 13,” that the condominium
project does not meet the 51 percent owner occupancy requirement. This matter should have
been addressed by Suburban during the underwriting process.




                                                 93
                                                                                              D-05
HUD case number:              023-2033645
Loan amount:                  $92,140
Settlement date:              May 19, 2004
Status:                       Conveyed

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $95,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the cost of the remodeling work done and failed to
ensure that the rehabilitation work was completed in accordance with outstanding city building
permits and that necessary occupancy permits were issued. The permits remain open, no
occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, undervaluation in
relation to predominant values in the neighborhood, excessive distance from comparables to the
subject unit, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that two of
the comparable units used to establish value for the subject unit were superior to the subject in
gross living area, age, exterior construction, upkeep, and location and had better amenities, green
belt landscaping, and ample parking for residents and guests. The appraiser apparently went
outside the area to select larger, superior units in an attempt to validate the sales price of the
subject unit. Suburban should have questioned the use of comparables from outside the area.
The other two comparables used were previous sales from the same condominium project as the
subject. Our review of the appraisals related to these two sales indicated that the units were
overvalued by approximately 30 percent. Thus, use of them as comparables in subsequent
appraisals resulted in similar overvaluations.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. The appraiser arbitrarily assigned a $3,000 value adjustment for the remodeling work
of the subject unit without providing any supporting documents or discussion to justify the value.
Had the appraiser researched the extent and cost of the work completed, he would have found
that the remodeling work required city construction permits to ensure that it met the city’s
building code standards. Records show that the final inspections were not completed (open).
According to the City of Phoenix, certificates of completion were never issued for the unit;

                                                94
therefore, it did not have occupancy authorization. The city will need to make additional
inspections to close open permits, and if defects in the rehabilitation work are noted, the current
owner of the unit will be responsible for completing the work.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units had, should have been taken into consideration in establishing the unit’s
appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $95,000 and the predominant value for the
area of $140,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.




                                                 95
                                                                                              D-06
HUD case number:              023-2099918
Loan amount:                  $92,140
Settlement date:              May 12, 2005
Status:                       Conveyed

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $95,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the cost of the remodeling work done and failed to
ensure that the rehabilitation work was completed in accordance with outstanding city building
permits and that necessary occupancy permits were issued. The permits remain open, no
occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, undervaluation in
relation to predominant values in the neighborhood, excessive distance from comparables to the
subject unit, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that two of
the comparable units used to establish value for the subject unit were superior to the subject in
gross living area, age, exterior construction, upkeep, and location and had better amenities, green
belt landscaping, and ample parking for residents and guests. The appraiser apparently went
outside the area to select larger, superior units in an attempt to validate the sales price of the
subject unit. The other two comparables used were previous sales from the same condominium
project as the subject. Our review of the appraisals related to these two sales indicated that the
units were overvalued by approximately 40 percent. Thus, use of them as comparables in
subsequent appraisals resulted in similar overvaluations. Suburban should have questioned the
use of comparables from outside the area.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. The appraiser arbitrarily assigned a $3,000 value adjustment for the remodeling work
without providing any supporting documents or discussion to justify the value. Had the
appraiser researched the extent and cost of the work completed he would have found that the
remodeling work required city construction permits to ensure that it met the city’s building code
standards. Records show that the final inspections were not completed (open). According to the
City of Phoenix, certificates of completion were never issued for the unit; therefore, it did not




                                                96
have occupancy authorization. The city will need to make additional inspections to close open
permits, and if defects in the rehabilitation work are noted, the current owner of the unit will be
responsible for completing the work.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units had, should have been taken into consideration in establishing the unit’s
appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $95,000 and the predominant value for the
area of $140,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.




                                                 97
                                                                                              D-07
HUD case number:              023-2171644
Loan amount:                  $71,274
Settlement date:              November 5, 2004
Status:                       Reinstated by mortgagor

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $50,000, not the $73,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the cost of the remodeling work done and failed to
ensure that the rehabilitation work was completed in accordance with outstanding city building
permits and necessary occupancy permits issued. The permits remain open, no occupancy
authorization was obtained, and the new homebuyer will be held responsible if any deficiencies
are noted when the city makes its final inspection of the unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, undervaluation in
relation to predominant values in the neighborhood, excessive distance from comparables to the
subject unit, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that two of
the comparable units used to establish value for the subject unit were superior to the subject in
gross living area, age, exterior construction, upkeep, and location and had better amenities, green
belt landscaping, and ample parking for residents and guests. The other two comparables used
were previous sales from the same condominium project as the subject. Our review of the
appraisals related to previous sales indicated that the units were overvalued by approximately 40
percent. Thus, use of them as comparables in subsequent appraisals resulted in similar
overvaluations. The appraiser apparently went outside the area to select larger, superior units in
an attempt to validate the sales price of the subject unit. Suburban should have questioned the
use of comparables from outside the area, especially since the appraiser continually went outside
of the area for appraisals related to this project and used comparable properties from distinctly
different areas.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would have
found that the remodeling work required city construction permits to ensure that it met the city’s




                                                98
building code standards. Records show that the final inspections were not completed (open).
According to the City of Phoenix, certificates of completion were never issued for the unit;
therefore, it did not have occupancy authorization. The city will need to make additional
inspections to close open permits, and if defects in the rehabilitation work are noted, the current
owner of the unit will be responsible for completing the work.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The appraiser made a line item adjustment to
a comparable in excess of 10 percent and gross adjustments exceeding the 25 percent guideline
without providing a detailed explanation “including reasons for not using more similar
comparable sales.” The adjustment made by the appraiser did not reflect actual condition and
characteristics of two comparables. These two comparables were superior to the subject
property, yet their sales prices were adjusted upward, not downward as would be expected.
Additionally, the building’s design uses the upper level walkways and roof that extend over the
lower floor’s entry points, which the appraiser inappropriately characterized as a covered porch.
This lack of a covered porch, which the comparable units had, should have been taken into
consideration in establishing the unit’s appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $73,000 and the predominant value for the
area of $140,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.




                                                 99
                                                                                               D-08
HUD case number:              023-2196544
Loan amount:                  $70,800
Settlement date:              December 14, 2004
Status:                       Reinstated by mortgagor

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $50,500, not the $73,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the cost of the remodeling work done and failed to
ensure that the rehabilitation work was completed in accordance with outstanding city building
permits and that necessary occupancy permits were issued. The permits remain open, no
occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, undervaluation in
relation to predominant values in the neighborhood, excessive distance from comparables to the
subject unit, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that two of
the comparable units used to establish value for the subject unit were superior to the subject in
gross living area, age, exterior construction, upkeep, and location and had better amenities, green
belt landscaping, and ample parking for residents and guests. The appraiser apparently went
outside the area to select larger, superior units in an attempt to validate the sales price of the
subject unit. The other two comparables used were previous sales from the same condominium
project as the subject. Our review of the appraisals related to sales in this project indicated that
the units were overvalued by approximately 40 percent. Thus, use of them as comparables in
subsequent appraisals resulted in similar overvaluations. Suburban should have questioned the
use of comparables from outside the area.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would have
found that the remodeling work required city construction permits to ensure that it met the city’s
building code standards. Records show that the final inspections were not completed (open).
According to the City of Phoenix, certificates of completion were never issued for the unit;
therefore, it did not have occupancy authorization. The city will need to make additional




                                                100
inspections to close open permits, and if defects in the rehabilitation work are noted, the current
owner of the unit will be responsible for completing the work.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The appraiser made a line item adjustment to
a comparable in excess of 10 percent and gross adjustments exceeding the 25 percent guideline
without providing a detailed explanation “including reasons for not using more similar
comparable sales.” Additionally, the building’s design uses the upper level walkways and roof
that extend over the lower floor’s entry points, which the appraiser inappropriately characterized
as a covered porch. This lack of a covered porch, which the comparable units had, should have
been taken into consideration in establishing the unit’s appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $73,000 and the predominant value for the
area of $140,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.




                                                 101
                                                                                               D-09
HUD case number:              023-2209240
Loan amount:                  $95,050
Settlement date:              2/2/05
Status:                       Conveyed

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $98,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the cost of remodeling work done and failed to
ensure that the rehabilitation work was completed in accordance with outstanding city building
permits and necessary occupancy permits issued. The permits remain open, no occupancy
authorization was obtained, and the new homebuyer will be held responsible if any deficiencies
are noted when the city makes its final inspection of the unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, undervaluation in
relation to predominant values in the neighborhood, excessive distance from comparable to the
subject unit, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that the
comparable unit used to establish value for the subject unit was superior to the subject in gross
living area, age, exterior construction, upkeep, and location and had better amenities, green belt
landscaping, and ample parking for residents and guests. The appraiser apparently went outside
the area to select a larger, superior unit in an attempt to validate the sales price of the subject
unit. Three other comparables used were previous sales from the same condominium project as
the subject. Our review of the appraisals related to sales in this project indicated that the units
were overvalued by approximately 40 percent. Thus, use of such sales as comparables in
subsequent appraisals resulted in similar overvaluations. Suburban should have questioned the
use of a comparable from outside the area.




                                                102
Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. The appraiser arbitrarily assigned a $3,000 value adjustment for remodeling work
without providing any supporting documents or discussion to justify the value. Had the
appraiser researched the extent and cost of the work completed, he would have found that the
remodeling work required city construction permits to ensure that it met the city’s building code
standards. Records show that the final inspections were not completed (open). According to the
City of Phoenix, certificates of completion were never issued for the unit; therefore, it did not
have occupancy authorization. The city will need to make additional inspections to close open
permits, and if defects in the rehabilitation work are noted, the current owner of the unit will be
responsible for completing the work.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable unit had, should have been taken into consideration in establishing the unit’s
appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $98,000 and the predominant value for the
area of $140,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.




                                                 103
                                                                                                D-10
HUD case number:               023-2159234
Loan amount:                   $97,290
Settlement date:               April 13, 2005
Status:                        Current

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $100,000 used by Suburban in establishing the maximum
insurable mortgage.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, undervaluation in
relation to predominant values in the neighborhood, excessive distance from comparable to the
subject unit, arbitrary value for remodeling, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that one
comparable unit used to establish value for the subject unit was superior to the subject in gross
living area, age, exterior construction, upkeep, and location and had better amenities, green belt
landscaping, and ample parking for residents and guests. The appraiser apparently went outside
the area to select a larger, superior unit in an attempt to validate the sales price of the subject
unit. Two other comparables used were previous sales from the same condominium project as
the subject. Our review of the appraisals related sales in this project indicated that its units were
overvalued by approximately 40 percent. Thus, use of them as comparables in subsequent
appraisals resulted in similar overvaluations. Suburban should have questioned the use of a
comparable from outside the area.

Remodeling Work Had No Support for Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. The appraiser arbitrarily assigned a $5,000 value adjustment for remodeling work
without providing any supporting documents or discussion to justify the value.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable unit had, should have been taken into consideration in establishing the unit’s
appraised value.




                                                 104
The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $100,000 and the predominant value for the
area of $140,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.




                                                 105
                                                                                                             D-11
HUD case number:                     023-2157852
Loan amount:                         $80,500
Settlement date:                     September 15, 2004
Status:                              Reinstated by mortgagor

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $83,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was completed in accordance with outstanding city
building permits and that necessary occupancy permits were issued. The permits remain open,
no occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit. 21 Additionally, the
only unit identified as having remodeling work completed that was consistent with that described
on the appraisal was a model unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, overvaluation in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy requirement, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that two of
the comparable units used to establish value for the subject unit were superior to the subject in
gross living area, age, exterior construction, upkeep, and location and had better amenities, green
belt landscaping, and ample parking for residents and guests. The other comparable used was a
previous sale from the same condominium project as the subject. Our review of the appraisals
related to this project indicated that the units were overvalued by approximately 40 percent.
Thus, use of such sales as comparbles in subsequent appraisals resulted in similar overvaluations.
The appraiser apparently selected larger, superior units in an attempt to validate the sales price of
the subject unit.




21
     The unit inspection and building permits were completed in Novemebr 2006 after our field work was complete.

                                                        106
Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. The appraiser arbitrarily assigned a $7,000 value adjustment for the remodeling work
without providing any supporting documents or discussion to justify the value. Had the
appraiser researched the extent and cost of the work completed, he would have found that the
remodeling work required city construction permits to ensure that it met the city’s building code
standards. Records show that the final inspections were not completed (open). According to the
City of Phoenix, certificates of completion were never issued for the unit; therefore, it did not
have occupancy authorization. The city will need to make additional inspections to close open
permits, and if defects in the rehabilitation work are noted, the current owner of the unit will be
responsible for completing the work. 22 Additionally, based upon interviews with owners, who
purchased the units from the same seller, the only unit that contained all of the remodeling work
described in the appraisal was one of the model units. We confirmed that the remodeling work
described in the appraisals was not consistent with the visual characteristics of the condominium
units.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units had, should have been taken into consideration in establishing the unit’s
appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $83,000 and the predominant value for the
area of $125,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The FHA case file contains a 70 percent
owner occupancy certification provided by a representative of the home owners association or
management company. The appraiser indicates in part II, “Comprehensive Valuation Package
under Valuation Condition 13,” that the condominium project meets the 51 percent owner
occupancy requirement. However, in other appraisals by the same appraiser (FHA case numbers
023-2290180 and 023-2307257), with effective dates postdating the loan in question, the “PUD”
section of the appraisal states that of the 28 total units in the condominium project, only eight
units (28.57 percent) had been sold. Thus, the owner occupancy level could not have met the 51




22
  The unit inspection and subsequent building permit and certificate of completion were completed in November
2006, after we finished our audit field work.

                                                      107
percent owner occupancy requirement as certified. This matter should have been addressed by
Suburban during the underwriting process.




                                            108
                                                                                                             D-12
HUD case number:                     023-2238326
Loan amount:                         $80,500
Settlement date:                     June 30, 2005
Status:                              Reinstated by mortgagor

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $84,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was completed in accordance with outstanding city
building permits and that necessary occupancy permits were issued. The permits remain open,
no occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the City makes its final inspection of the unit. 23 Additionally, the
only unit identified as having remodeling work completed that was consistent with that described
on the appraisal was a model unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, overvaluation in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy requirement, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that a
comparable unit used to establish value for the subject unit was superior to the subject in gross
living area, exterior construction, upkeep, and location and had better amenities and green belt
landscaping. Additionally, it was noted that this comparable unit was superior in age and had
ample parking for residents and guests. The other comparables used were from a previous sale
from the same condominium project as the subject and the other condominium project included
in our review. Our analysis of the appraisals related to these projects indicated that the units
were overvalued by approximately 40 percent. Thus, use of such sales as comparable in
subsequent appraisals resulted in similar overvaluations. The appraiser apparently selected a
larger, superior comparable unit in an attempt to validate the sales price of the subject unit.




23
     The unit inspection and building permit were completed in Novemebr 2006 after our field work was complete.

                                                        109
Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would have
found that the remodeling work required city construction permits to ensure that it met the city’s
building code standards. Records show that the final inspections were not completed (open).
According to the City of Phoenix, certificates of completion were never issued for the unit;
therefore, it did not have occupancy authorization. The city will need to make additional
inspections to close open permits, and if defects in the rehabilitation work are noted, the current
owner of the unit will be responsible for completing the work. 24 Additionally, based upon
interviews with owners, who purchased the units from the same seller, the only unit that
contained all of the remodeling work described in the appraisal was one of the model units. We
confirmed that the remodeling work described in the appraisals was not consistent with the visual
characteristics of the condominium units.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable unit had, should have been taken into consideration in establishing the unit’s
appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $84,000 and the predominant value for the
area of $125,000. Had Suburban questioned the unexplained difference, it would have found
that the wrong appraisal form had been used and the predominant value for the area was based
on single-family homes rather than condominiums. Further, the appraiser did not identify the
significant concessions being paid by the seller that affected the sales price of the subject unit;
i.e., all downpayment and closing costs were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The FHA case file contains a 51 percent
owner occupancy certification provided by a representative of the home owners association or
management company. The appraiser indicates in part II, “Comprehensive Valuation Package
under Valuation Condition 13,” that the condominium project meets the 51 percent owner
occupancy requirement. However, other appraisals by the same appraiser (FHA case numbers
023-2290180 and 023-2307257), with effective dates postdating the loan in question, state in the
“PUD” section of the appraisals that of the 28 total units in the condominium project only eight
units (28.57 percent) had been sold. Thus, the owner occupancy level could not have met the 51
percent requirement as certified. This matter should have been addressed by Suburban during
the underwriting process.




24
  The unit inspection and subsequent building permit and certificate of completion were completed in November
2006, after we concluded our audit field work.

                                                      110
                                                                                                             D-13
HUD case number:                     023-2273203
Loan amount:                         $83,022
Settlement date:                     July 29, 2005
Status:                              Current

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $86,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was completed in accordance with outstanding city
building permits and that necessary occupancy permits were issued. The permits remain open,
no occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit. 25 Additionally, the
only unit identified as having remodeling work completed that was consistent with that described
on the appraisal was a model unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, overvaluation in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy requirement, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that a
comparable unit used to establish value for the subject unit was superior to the subject in gross
living area, exterior construction, upkeep, and location and had better amenities and green belt
landscaping. Additionally, it was noted that the comparable unit was superior in age and had
ample parking for residents and guests. The appraiser apparently selected a larger, superior unit
in an attempt to validate the sales price of the subject unit. The other two comparables used were
a previous sale; one from the same condominium project as the subject and the second sale from
the other condominium project included in our review. Our review of the appraisals/sales related
to these two projects indicated that the units were overvalued by approximately 40 percent.
Thus, use of them as comparables in subsequent appraisals resulted in similar overvaluations.




25
     The unit inspection and building permit were completed in Novemebr 2006 after our field work was complete.

                                                        111
Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would have
found that the remodeling work required city construction permits to ensure that it met the city’s
building code standards. Records show that the final inspections were not completed (open).
According to the City of Phoenix, certificates of completion were never issued for the unit;
therefore, it did not have occupancy authorization. The city will need to make additional
inspections to close open permits, and if defects in the rehabilitation work are noted, the current
owner of the unit will be responsible for completing the work. 26 Additionally, based on
interviews with owners, who purchased the units from the same seller, the only unit that
contained all of the remodeling work described in the appraisal was one of the model units. We
confirmed that the remodeling work described in the appraisals was not consistent with the visual
characteristics of the condominium units.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable unit had, should have been taken into consideration in establishing the unit’s
appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $86,000 and the predominant value for the
area of $125,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The FHA case file contains a 51 percent
owner occupancy certification provided by a representative of the home owners association or
management company. The appraiser indicates in part II, “Comprehensive Valuation Package
under Valuation Condition 13,” that the condominium project meets the 51 percent owner
occupancy requirement. However, other appraisals by the same appraiser (FHA case numbers
023-2290180 and 023-2307257), with effective dates postdating the loan in question, state in the
“PUD” section of the appraisal that of the 28 total units in the condominium project, only eight
units (28.57 percent) had been sold. Thus, the owner occupancy level could not have met the 51
percent requirement as certified. This matter should have been addressed by Suburban during
the underwriting process.




26
  The unit inspection and subsequent building permit and certificate of completion were completed in November
2006, after we concluded our audit field work.

                                                      112
                                                                                              D-14
HUD case number:              023-2300236
Loan amount:                  $83,225
Settlement date:              November 3, 2005
Status:                       Current

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $86,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was consistent with that listed on the appraisal. The
only unit identified as having remodeling work completed that was consistent with that described
on the appraisal was a model unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, overvaluation in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy requirement, etc.

Comparables Used Resulted in Significant Overvaluations
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. Two of the comparables used were previous
sales from the same condominium project as the subject, and the other was a sale from the other
condominium project included in our review. Our analysis of the appraisals/sales related to these
two projects indicated that the units were overvalued by approximately 40 percent. Thus, use of
them as comparables for this appraisal resulted in a similar overvaluation.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would have
found that the remodeling work was not consistent with that listed in his appraisal. Based on
interviews with owners, who purchased the units from the same seller, the only unit that
contained all of the remodeling work described in the appraisal was one of the model units.
Additionally, we confirmed that the remodeling work described in the appraisals was not
consistent with the visual characteristics of the condominium units.




                                               113
An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units originally used to support values in this project had, should have been taken
into consideration in establishing the unit’s appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $86,000 and the predominant value for the
area of $125,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The FHA case file contains a 51 percent
owner occupancy certification provided by a representative of the home owners association or
management company. The appraiser indicates in part II, “Comprehensive Valuation Package
under Valuation Condition 13,” that the condominium project meets the 51 percent owner
occupancy requirement. However, other appraisals by the same appraiser (FHA case numbers
023-2290180 and 023-2307257), with effective dates postdating the loan in question, state in the
“PUD” section of the appraisal that of the 28 total units in the condominium project, only eight
units (28.57 percent) had been sold. Thus, the owner occupancy level could not have met the 51
percent requirement as certified. This matter should have been addressed by Suburban during
the underwriting process.




                                                 114
                                                                                              D-15
HUD case number:              023-2300111
Loan amount:                  $82,740
Settlement date:              November 3, 2005
Status:                       Delinquent

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $86,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was consistent with that listed on the appraisal. The
only unit identified as having remodeling work completed that was consistent with that described
on the appraisal was a model unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, overvaluation in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy requirement, etc.

Comparables Used Resulted in Significant Overvaluations
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. Two of the comparables used were previous
sales from the same condominium project as the subject, and the other was a sale from the other
condominium project included in our review. Our analysis of the appraisals/sales related to these
two projects indicated that the units were overvalued by approximately 30 percent. Thus, use of
them as comparables for this appraisal resulted in a similar overvaluation.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would have
found that the remodeling work was not consistent with that listed in his appraisal. Based on
interviews with owners, who purchased the units from the same seller, the only unit that
contained all of the remodeling work described in the appraisal was one of the model units.
Additionally, we confirmed that the remodeling work described in the appraisals was not
consistent with the visual characteristics of the condominium units.




                                               115
An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units originally used to establish value in this project had, should have been taken
into consideration in establishing the subject unit’s appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $86,000 and the predominant value for the
area of $125,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The FHA case file contains a 51 percent
owner occupancy certification provided by a representative of the home owners association or
management company. Also, the appraiser indicates in part II, “Comprehensive Valuation
Package under Valuation Condition 13,” that the condominium project meets the 51 percent
owner occupancy requirement. However, in other appraisals by the same appraiser (FHA case
numbers 023-2290180 and 023-2307257), with effective dates postdating the loan in question,
the “PUD” section of the appraisal states that of the 28 total units in the condominium project,
only eight units (28.57 percent) had been sold. Thus, the owner occupancy level could not have
been met the 51 percent requirement as certified. This matter should have been addressed by
Suburban during the underwriting process.




                                                 116
                                                                                              D-16
HUD case number:              023-2290180
Loan amount:                  $84,680
Settlement date:              November 23, 2005
Status:                       Current

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $87,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was consistent with that listed on the appraisal. The
only unit identified as having remodeling work completed that was consistent with that described
on the appraisal was a model unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, overvaluation in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy requirement, etc.

Comparables Used Resulted in Significant Overvaluations
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. Two of the comparables used were previous
sales from the same condominium project as the subject, and the other was a sale from the other
condominium project included in our review. Our analysis of the appraisals/sales related to these
two projects indicated that the units were overvalued by approximately 40 percent. Thus, use of
them as comparables for this appraisal resulted in a similar overvaluation.


An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units originally used to support values in this project had, should have been taken
into consideration in establishing the unit’s appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $87,000 and the predominant value for the
area of $125,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by



                                               117
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The FHA case file contains a 51 percent
owner occupancy certification provided by a representative of the home owners association or
management company. The appraiser also indicates in part II, “Comprehensive Valuation
Package under Valuation Condition 13,” that the condominium project meets the 51 percent
owner occupancy requirement. However, the “Project Improvements” section of the appraisal
states that of the 28 total units in the condominium project, only eight (28.57 percent) have been
sold. Thus, the owner occupancy level did not meet the 51 percent requirement as certified.
This matter should have been addressed by Suburban during the underwriting process.




                                                 118
                                                                                              D-17
HUD case number:              023-2307257
Loan amount:                  $82,682
Settlement date:              November 23, 2005
Status:                       Current

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $87,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was consistent with that listed on the appraisal. The
only unit identified as having remodeling work completed that was consistent with that described
on the appraisal was a model unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, overvaluation in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy requirement, etc.

Comparables Used Resulted in a Significant Overvaluation
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. Two of the comparables used were previous
sales from the same condominium project as the subject, and the other was a sale from the other
condominium project included in our review. Our analysis of the appraisals/sales related to these
two projects indicated that the units were overvalued by approximately 40 percent. Thus, use of
them as comparables for this appraisal resulted in a similar overvaluation.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would have
found that the remodeling work was not consistent with that listed in his appraisal. Based upon
interviews with owners, who purchased the units from the same seller, the only unit that
contained all of the remodeling work described in the appraisal was one of the model units.
Additionally, we confirmed that the remodeling work described in the appraisals was not
consistent with the visual characteristics of the condominium units.




                                               119
An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units originally used to support values in this project had, should have been taken
into consideration in establishing the unit’s appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $87,000 and the predominant value for the
area of $125,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single-family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The FHA case file contains a 51 percent
owner occupancy certification provided by a representative of the home owners association or
management company. The appraiser also indicates in part II, “Comprehensive Valuation
Package under Valuation Condition 13,” that the condominium project meets the 51 percent
owner occupancy requirement. However, the “Project Improvements” section of the appraisal
states that of the 28 total units in the condominium project, only eight (28.57 percent) have been
sold. Thus, the owner occupancy level did not meet the 51 percent requirement as certified.
This matter should have been addressed by Suburban during the underwriting process.




                                                 120
                                                                                                             D-18
HUD case number:                     023-2265939
Loan amount:                         $82,352
Settlement date:                     June 30, 2005
Status:                              Current

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $85,000 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was completed in accordance with outstanding city
building permits and that necessary occupancy permits were issued. The permits remain open,
no occupancy authorization was obtained, and the new homebuyer will be held responsible if any
deficiencies are noted when the city makes its final inspection of the unit. 27 Additionally, the
only unit identified as having remodeling work completed that was consistent with that described
on the appraisal was a model unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, overvaluation in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy requirement, etc.

Comparables Used Were Not Similar in Design or Location
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. The OIG appraiser/analyst noted that a
comparable unit used to establish value for the subject unit was superior to the subject in gross
living area, exterior construction, upkeep, and location and had better amenities and green belt
landscaping. Additionally, this comparable unit was newer and had ample parking for residents
and guests. The other two comparables used were previous sales from the same condominium
project as the subject and from the other condominium project included in our review. Our
analysis of the appraisals/sales related to these two projects indicated that the units in the projects
were overvalued by approximately 40 percent. Thus, use of them as comparables for this
appraisal resulted in a similar overvaluation. The appraiser apparently selected a larger, superior
unit and overvalued units from the subject condominiums as comparables in an attempt to
validate the sales price of the subject unit.




27
     The unit inspection and building permit were completed in Novemebr 2006 after our field work was complete.

                                                        121
Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would
have found that the remodeling work required city construction permits to ensure that it met the
city’s building code standards. Records show that the final inspections were not completed
(open). According to the City of Phoenix, certificates of completion were never issued for the
unit; therefore, it did not have occupancy authorization. The city will need to make additional
inspections to close open permits, and if defects in the rehabilitation work are noted, the current
owner of the unit will be responsible for completing the work. 28 Additionally, based on
interviews with owners, who purchased the units from the same seller, the only unit that
contained all of the remodeling work described in the appraisal was one of the model units. We
confirmed that the remodeling work described in the appraisals was not consistent with the visual
characteristics of the condominium units.

An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floor’s entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units originally used to support values in this project had, should have been taken
into consideration in establishing the unit’s appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $85,000 and the predominant value for the
area of $125,000. Had Suburban questioned the unexplained difference, it would have found
that the wrong appraisal form had been used and the predominant value for the area was based
on single-family homes rather than condominiums. Further, the appraiser did not identify the
significant concessions being paid by the seller that affected the sales price of the subject unit;
i.e., all downpayment and closing costs were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. The FHA case file contains a 51 percent
owner occupancy certification provided by a representative of the home owners association or
management company. The appraiser also indicates in part II, “Comprehensive Valuation
Package under Valuation Condition 13,” that the condominium project meets the 51 percent
owner occupancy requirement. However, in other appraisals by the same appraiser (FHA case
numbers 023-2290180 and 023-2307257), with the same effective date, the appraiser states in the
“PUD” section of the appraisal that of the 28 total units in the condominium project, only eight
units (28.57 percent) had been sold. Thus, the owner occupancy level could not have been met
the 51 percent requirement as certified. This matter should have been addressed by Suburban
during the underwriting process.



28
  The unit inspection and subsequent building permit and certificate of completion were completed in November
2006, after we concluded our audit field work.


                                                      122
                                                                                              D-19
HUD case number:              023-2309786
Loan amount:                  $82,925
Settlement date:              January 25, 2006
Status:                       Current

The appraiser did not use appropriate comparable units and valid adjustments when establishing
the unit’s appraised value. The appraiser’s misrepresentation of the subject and comparable units
led to a significant overvaluation of the subject property and a corresponding excessive FHA-
insured mortgage. In the opinion of the OIG appraiser/analyst, this unit should have appraised at
approximately $59,000, not the $87,500 used by Suburban in establishing the maximum
insurable mortgage.

In addition, the appraiser did not document the extent or cost of the remodeling work done and
failed to ensure that the rehabilitation work was consistent with that listed on the appraisal. The
only unit identified as having remodeling work completed that was consistent with that described
on the appraisal was a model unit.

Based upon information in the appraisal report and loan origination file, Suburban should have
become aware of potential problems with this appraisal during the underwriting process. The
deficiencies included failure of the appraiser to address seller concessions, overvaluation in
relation to predominant values in the neighborhood, the project’s failure to meet the 51 percent
owner occupancy requirement, etc.

Comparables Used Resulted in a Significant Overvaluation
HUD Handbook 4150.2, CHG-1, paragraph 4-6A2. Two of the comparables used were previous
sales from the same condominium project as the subject, and the other was a sale from the other
condominium project included in our review. Our analysis of the appraisals/sales related to these
two projects indicated that the units were overvalued by approximately 40 percent. Thus, use of
them as comparables for this appraisal resulted in a similar overvaluation.

Remodeling Work Was Incomplete with No Assigned Value
HUD Handbook 4150.2, CHG-1, paragraph 3-1, and HUD Handbook 4150.1, REV-1, paragraph
11-7A9. Had the appraiser researched the extent and cost of the work completed, he would have
found that the remodeling work was not consistent with that listed in his appraisal. Interviews
with owners, who purchased the units from the same seller, informed us that the only unit that
contained all of the remodeling work described in the appraisal was one of the model units.
Additionally, we confirmed that the remodeling work described in the appraisals was not
consistent with the visual characteristics of the condominium units.




                                               123
An Adjustment Was Needed to Reflect Comparable Units’ Amenities
HUD Handbook 4150.2, appendix D-3, section 9. The building’s design uses the upper level
walkways and roof that extend over the lower floors’ entry points, which the appraiser
inappropriately characterized as a covered porch. This lack of a covered porch, which the
comparable units originally used to support values in this project had, should have been taken
into consideration in establishing the unit’s appraised value.

The Unit’s Value Conflicted with the Neighborhood’s Predominant Value
HUD Handbook 4150.2, paragraph 4-1A. The appraiser failed to explain why there was such a
large gap between the subject’s appraised value of $87,500 and the predominant value for the
area of $125,000. Had Suburban questioned the unexplained difference, it would have found
that the predominant value for the area was based on single- family homes rather than
condominiums. Further, the appraiser did not identify the significant concessions being paid by
the seller that affected the sales price of the subject unit; i.e., all downpayment and closing costs
were essentially paid by the seller.

The Project Did Not Meet HUD’s 51 Percent Owner Occupancy Requirement
HUD Handbook 4150.1, REV-1, paragraph 11-3B. There were no documents in the FHA case
file, including the comprehensive valuation packet or a 51 percent owner occupancy
certification, to indicate that the 51 percent owner occupancy requirement had been met.
Further, the appraiser also indicates in the “PUD” section in the appraisal that of the 28 total
units in the condominium projects, about eight (28.57 percent) of the condominium units had
been sold. Thus, the owner occupancy level did not meet the 51 percent requirement. This
matter should have been addressed by Suburban during the underwriting process.

The Subject Property’s Characteristics Were Not Identified
The appraiser failed to identify the specific unit being appraised, bringing into question the
quality of care put into preparing the appraisal as a whole. In this regard, the appraiser had at
least four other appraisals using the same three comparables within less than a four-week period
with three different final values and no discussion as to why the values were different.




                                                 124
APPENDIXES

Appendix E

    NARRATIVE CASE SUMMARIES – MORTGAGE CREDIT


                                                                                                E-01

HUD case number:               022-182617-7
Loan amount:                   $139,707
Settlement date:               March 31, 2005
Status:                        Active/delinquent
Indemnification:               $40,515

Suburban underwrote and approved this loan although the borrowers had an unacceptable credit
history and unstable employment and no valid compensating factors needed to support their
excessive debt-to-income ratio. As a result, HUD insured the loan based on Suburban’s
inaccurate representation that the borrowers met HUD qualifying guidelines. In addition, the
lender allowed interested third parties to handle vital loan documents and did not ensure the
validity of the bank account documentation submitted on behalf of the borrowers.

Unacceptable Credit History
HUD Handbook 4155.1, REV-5, paragraph 2-3. The borrower’s credit report did not have
sufficient information to rate and evaluate his credit history. Therefore, Suburban was responsible
for establishing the borrower’s credit through alternative methods, which it failed to do. Suburban
did not pursue alternate credit such as utility payments, insurance, or other means through direct
access from the credit provider. In addition, the borrower’s limited credit history indicated a
tendency to disregard liabilities; the primary credit history was composed of several collection
accounts that appeared to have been paid off just before the borrower applied for the mortgage.

Unstable Employment
HUD Handbook 4155.1, REV-5, paragraph 2-6. Suburban failed to substantiate the borrower’s
employment stability. The borrower had four different employers and job positions in 16
months. In addition, a 10-month continuous gap in employment occurred, during which time the
borrower claimed to have held miscellaneous day jobs that paid cash.

Excessive Debt-to-Income Ratio
HUD Handbook 4155.1, REV-5, paragraph 2-12A. Suburban failed to document valid factors to
compensate for the borrower’s excessive front-end debt-to-income ratio of 37.44 percent (versus
HUD’s maximum standard of 31 percent) and the substantial increase (over 40 percent) in
housing cost. Suburban’s claimed compensating factors of overtime income and ability to save
were not supported by the verifications of employment and bank balances.




                                                125
Interested Third-Party Handling and Validity of Loan Documents
HUD Handbook 4155.1, REV-5, paragraph 3-1. Suburban failed to obtain proper documentation
to validate the borrower’s source and amount of funds available. According to HUD policy, the
lender is required to elicit a full financial picture of the borrower. However, a copy of the
borrower’s claimed earnest money check appears to have been faxed by the realtor (interested
third party), and the bank statement used to validate the borrower’s assets has no identifying logo
to verify it as being from an authentic financial institution.

Recommendation
Indemnify HUD for the $139,707 mortgage.




                                               126
                                                                                                E- 02
HUD case number:               023-199965-1
Loan amount:                   $107,043
Settlement date:               May 28, 2004
Status:                        Active/reinstated
Indemnification:               $31,042

Suburban underwrote and approved this loan without fully analyzing the borrower’s credit. The
lender did not obtain valid explanations of the borrower’s poor credit history, update of the primary
borrower’s credit report that had exceeded the 120-day maximum timeframe allowed by HUD, or
obtain a credit report for the primary borrower’s nonpurchasing spouse to determine whether she
had any outstanding debt that could have affected loan approval. Accordingly, the lender did not
have the information necessary to determine whether the borrowers met HUD-required qualifying
guidelines, including debt-to-income ratios.

Inadequate Evaluation of Credit/Debts
HUD Handbook 4155.1, REV-5, paragraphs 2-2D, 3-1, and 2-3. Suburban did not properly analyze
the borrower’s credit worthiness as it failed to obtain a credit report for the primary borrower’s
spouse. The lender is required to factor a nonpurchasing spouse’s debts into the qualifying ratios in
community property states. Suburban did not update the borrower’s credit report that exceeded the
maximum 120 days and, therefore, was outdated and not valid for loan analysis and approval.
Suburban did not provide adequate compensating factors to justify the borrower’s poor credit
history, which showed an overall pattern of disregarding liabilities and a penchant for overspending.

Debt-to-Income Ratios Not Determined
HUD Handbook 4155.1, REV-5, paragraph 2-12B. Although the borrower minimally exceeded
HUD’s debt-to-income standard, the actual excess is unknown because Suburban used an outdated
credit report for the borrower and did not obtain a credit report for the borrower’s spouse.

Recommendation
Indemnify HUD for the $107,043 mortgage.




                                                 127
                                                                                           E- 03
HUD case number:             023-203364-5
Loan amount:                 $92,140
Settlement date:             May 19, 2004
Status:                      Conveyed
Loss to HUD:                 $16,257

Suburban underwrote and approved the loan even though the borrower did not have an adequate
employment history, had excessive delinquent credit accounts, and had excessive debt-to-income
ratios without adequate compensating factors. Further, Suburban used the 2-1 interest rate buy-
down program to qualify the borrower without documenting any compensating factors that
would help her meet the increased mortgage payments when the buy-down terminated. HUD
insured the loan based on Suburban’s inaccurate representation that the borrower met HUD
qualifying guidelines. Additionally, the seller contributed $1,383 above the maximum
contribution allowed by HUD, of which at least $427 was used at closing to pay off some of the
borrower’s delinquent accounts. Therefore, a dollar-for-dollar reduction in the sale price of the
home is required for the $1,383 in excessive seller contributions.

Employment Stability Not Established
HUD Handbook 4155.1, REV-5, paragraph 2-6. Suburban could verify only 11 months of
employment history for the borrower, far short of the 24 months expected by HUD guidelines.
Suburban attempted to use training and education as a compensating factor for the lack of
employment history. However, documentation in the loan file only supported two months of
training that had taken place three and one-half years earlier.

Inappropriate Use of Buy-Down Rate
HUD Handbook 4155.1, REV-5, paragraphs 2-14B2 and 2-10C. Suburban approved this
mortgage using a 2-1 interest rate buy-down program without providing compensating factors to
establish that the eventual increase in mortgage payments would not adversely affect the
borrower’s ability to pay. Without the buy-down, the borrower’s debt-to-income ratios (after
adjustment for additional debt discussed below) would have been 44 percent (front) and 59
percent (back) ratios versus HUD’s recommended maximums of 29 and 41 percent.

Failure to Properly Analyze Credit History
HUD Handbook 4155.1, REV-5, paragraphs 2-11A and 2-3. Suburban did not include a debt
with monthly payments of $231 (which had approximately 10 months of payments left) although
the debt would have significantly affected the borrower’s ability to make mortgage payments
during the months immediately after loan closing. Further, Suburban did not obtain a valid and
reasonable explanation of the circumstances relating to the borrower’s nine delinquent accounts.
The borrower’s explanation that she used credit cards to support herself confirms that she was
unable to properly manage her personal finances.




                                              128
Excessive Debt-to-Income Ratios
HUD Handbook 4155.1, REV-5, paragraph 2-12. Suburban did not provide any factors to
compensate for the borrower’s exceeding the HUD qualifying ratios of 29 and 41 percent. The
borrower’s front ratio was 36.7 percent, and her back ratio was 51.7 percent (after taking into
account the excluded debt discussed above).

Excess Seller Contribution
HUD Handbook 4155.1, REV-5, paragraphs 1-7A and B. Suburban did not reduce the
maximum mortgage for the amount of seller contributions ($1,383) that exceeded HUD’s
maximum allowable limit of 6 percent of sales price. This amount includes an unidentified
deposit on behalf of the borrower totaling $427, which was used to pay off several of the
borrower’s delinquent accounts at closing.

Interested Third Party Handled Documents
HUD Handbook 4155.1, REV-5, paragraph 3-1. Suburban improperly accepted documents
relating to the borrower’s credit, employment, and income that were handled by/transmitted from
or through the interested third party’s (seller’s) equipment (fax machine).

Recommendation
Indemnify HUD for the loss $16,257




                                              129
                                                                                            E-04
HUD case number:             023-209453-6
Loan amount:                 $114,973
Settlement date:             May 26, 2004
Status:                      Terminated
Indemnification:             $7,135 Partial Claim


Suburban underwrote and approved the loan although the borrower had excessive debt-to-income
ratios without adequate compensating factors. Further, Suburban used the 2-1 interest rate buy-
down program to qualify the borrower without documenting any compensating factors that would
help her meet the increased mortgage payments when the buy-down terminated. HUD insured the
loan based on Suburban’s inaccurate representation that the borrower met HUD qualifying
guidelines. Additionally, Suburban allowed the seller to pay off borrower collection accounts
totaling $272 in violation of HUD policy, resulting in an overinsured mortgage.

Excessive Debt-to-Income Ratio
HUD Handbook 4155.1, REV-5, paragraphs 2-12A, 2-13E, Suburban approved this mortgage
although the borrower’s mortgage payment-to-income ratio of 38 percent exceeded HUD’s
maximum of 31 percent. In accordance with HUD requirements, if this maximum ratio is
exceeded, valid compensating factors must be present. The only compensating factor provided
by Suburban was an undocumented possibility of future child support. The information
documented in the file did not document the potential that the borrower would receive child
support income as required by HUD. Additionally, the ratios used by the lender were computed
based upon a short-term interest rate buy-down (see below).

Inappropriate Use of Buy-Down Rate
HUD Handbook 4155.1, REV-5, paragraphs 2-14B2 and 2-10 C. Suburban approved this
mortgage based upon a 2-1 interest rate buy-down program without providing any compensating
factors to establish that the eventual increase in mortgage payments would not adversely affect
the borrower’s ability to pay. Without the buy-down, the borrower’s debt to income ratios would
have been 45 percent (both front and back), significantly exceeding HUD’s recommended
maximums of 29 and 41 percent. Such an increase would have adversely affected the borrower’s
ability to meet her monthly mortgage obligation.

Ineligible Contribution
HUD Handbook 4155.1, REV-5, paragraph 2-10C. The lender violated HUD’s policy by
allowing the seller to pay off the borrower’s debt ($272), which is an inducement to purchase
requiring a dollar for-dollar-reduction in the selling price.

Recommendation
Indemnify HUD for the $7,135 partial claim paid.




                                              130
                                                                                                E-05
HUD case number:               023-209991-8
Loan amount:                   $92,140
Settlement date:               May 25, 2004
Status:                        Conveyed
Loss to HUD:                   $6,371

Suburban used the 2-1 interest rate buy-down program to qualify the borrower for the mortgage
without documenting any compensating factors that would help her meet the increased mortgage
payments when the buy-down terminated. In addition, the lender did not reduce the maximum
insurable mortgage for $1,147 in excessive seller contributions used to meet closing costs and to
pay off borrower collection accounts. Also, Suburban did not properly analyze the borrower’s
credit history and allowed the seller to handle critical loan documents in violation of HUD policy.

Inappropriate Use of Buy-Down Rate
HUD Handbook 4155.1, REV-5, paragraph 2-14B2. Suburban approved this mortgage using a
2-1 interest rate buy-down program without providing compensating factors to establish that the
eventual increase in mortgage payments would not adversely affect the borrower’s ability to pay.
Without the buy-down, the borrower’s debt-to-income ratios would have been 32 percent (front)
and 50 percent (back) versus HUD’s recommended maximums of 29 and 41 percent. Interest
buy-down programs are designed to reduce the borrower’s payment during the early years of the
mortgage. However, the lender must establish that the eventual increase in mortgage payments
would not adversely affect the borrower and lead to default. This can be done by 1) establishing
that the borrower has the ability to increase earnings/income, 2) demonstrating the borrower’s
ability to manage financial obligations in a way so that more income can go to housing, or 3)
documenting that the borrower has substantial assets to cushion the increase or that the cash
investment substantially exceeded the minimum required. However, in this instance, the
borrower had minimal savings and had no housing expenses before the purchase of the home.

Excessive and Ineligible Seller Contributions
HUD Handbook 4155.1, REV-5, paragraphs 1-7A and 2-10C. The seller paid $6,144 of the
borrower’s closing costs (including the loan discount and the buy-down fee), which is $445 more
than the 6 percent of purchase cost ($5,699) maximum allowed by HUD. Additionally, $702 was
provided on behalf of the borrower at closing to pay off her collection accounts. The excessive
payment for borrower closing costs ($445) and the payment of the borrower’s collection accounts
($702) are considered unallowable purchase inducements, which should have resulted in a dollar-
for-dollar reduction in the sale price of the property. Since Suburban failed to take these
inducements into account, the mortgage is overinsured by $1,147.




                                                131
Inadequate Analysis of Borrower’s Credit
HUD Handbook 4155.1, REV-5, paragraph 2-4A2. The lender did not reconcile or explain
discrepancies in the loan file related to two outstanding debts with monthly payments of $116
listed on the borrower’s credit report. The report indicated that the borrower, although an
authorized user on the account, was not responsible for the debt. Accordingly, Suburban did not
include these as borrower debts when determining the borrower’s debt-to-income ratios.
However, borrower bank statements in the loan file show that the borrower is making the
monthly payments on these accounts. The lender should have resolved this discrepancy and
determined who was responsible for and was paying these debts. By paying the debt, the
borrower took responsibility for the debt, and the liabilities should have been factored into her
qualifying ratios. If this had been done, the borrower’s total debt-to-income ratio would have
been 45.4 percent (taking into consideration the 2-1 interest rate buy-down discussed above the
debt-to-income ratio would have been 56.9), which exceeded HUD’s standard of 41 percent.

Interested Third Party Handled Documents
HUD Handbook 4155.1, REV-5, paragraph 3-1. Suburban improperly accepted documents
relating to the borrower’s credit, employment, and income that were handled by/transmitted from
or through the interested third party’s (seller’s) equipment (fax machine).

Recommendation
Indemnify HUD for the $6,371 loss resulting from the foreclosure and resale of the property.




                                               132
                                                                                             E- 06
HUD case number:              023-2209240
Loan amount:                  $92,050
Settlement date:              February 2, 2005
Status:                       Conveyed
Loss to HUD:                  $12,996

Suburban underwrote and approved this loan although the borrower had only a limited and
unstable employment history and a limited credit history (including an unexplained collection
account) and had no compensating factors that would justify significantly exceeding HUD’s
debt- to- income ratio standards. In addition, Suburban allowed an interested third party to
handle vital loan documents in violation of HUD requirements.

Inadequate Employment and Income History
HUD Handbook 4155.1, REV-5, paragraph 2-6. Suburban failed to demonstrate that the
borrower had a stable income and employment history. The borrower had been employed at his
current job for only one month. Suburban loosely substantiated an additional year of
employment through another verification of employment and borrower statements. However,
actual employment history was verified for only the five months before the loan application.
During this period, the borrower had two different jobs and was unemployed for one month
between the two jobs. This limited and unstable employment history did not meet HUD’s
requirements for two years’ verified employment and a stable employment and income history.

Excessive Debt-to-Income Ratio
HUD Handbook 4155.1, REV-5, paragraph 2-12A. The borrower’s mortgage payment- to-debt
ratio (front) of 41 percent significantly exceeded HUD’s standard of 29 percent. However,
Suburban failed to identify any compensating factors to justify approval of this high-ratio loan.
In this regard, the borrower’s housing expense was going up more than 75 percent; and he had
“$0” confirmed reserves, unstable employment, and no real credit history. Accordingly, there
were no factors, which would have justified the approval of this high-ratio loan.

Inadequate Credit Analysis
HUD Handbook 4155.1, REV-5, paragraph 2-3. The borrower had a very limited credit history
(less than one year). This limited credit history included a collection account. However,
Suburban did not obtain a written explanation from the borrower describing the circumstances
related to this account as required by HUD.

Interested Third Party Handled Documents
HUD Handbook 4155.1, REV-5, paragraph 3-1. Suburban improperly accepted documents
relating to the borrower’s credit, employment, and income that were handled by/transmitted from
or through the interested third party’s (seller’s) equipment (fax machine).

Recommendation
Indemnify HUD for the $12,996 loss resulting from the foreclosure and resale of the property.




                                               133
                                                                                                E- 07
HUD case number:               023-221521-7
Loan amount:                   $113,883
Settlement date:               March 8, 2005
Status:                        Active
Indemnification:               $33,026

Suburban failed to document any compensating factors to justify its approval of this high-ratio
loan; the mortgage payment-to-income ratio was 41.4 percent versus HUD’s 29 percent standard.
Additionally, the seller apparently provided $653 at closing to pay off two borrower collection
accounts. HUD considers such payments inducements to purchase and requires a dollar-for-
dollar reduction in the sales price and, in this instance, the maximum insurable mortgage.
Further, the lender used documents that did not meet HUD standards to verify the borrower’s
assets used to pay closing costs. A bank statement and a cash flow ledger did not have
identifying institutional logos required if used to verify sources of funds. Suburban did not
adequately analyze the borrower’s credit history including not resolving contradictory credit
information and not identifying any acceptable credit history for the borrower. Finally,
Suburban allowed an interested third party to handle vital loan documents in violation of HUD
requirements. The combined problems associated with this loan resulted in an unacceptable
insurance risk to HUD.

Excessive Debt-to-Income Ratios
HUD Handbook 4155.1, REV-5, paragraph 2-12A. Suburban failed to provide any
compensating factors that justified approval of this high-ratio loan. The borrower’s mortgage-to-
income ratio (front) was 41.4 percent versus HUD’s standard of 29 percent. HUD requirements
allow for approval of loans involving high debt-to-income ratios only if significant compensating
factors are present. In this case, not only were there no identified compensating factors, but the
borrower also had no reserves, his housing expense was going up almost 50 percent, and he had
a poor credit history.

Borrower’s Assets Not Properly Verified
HUD Handbook 4155.1, REV-5, paragraph 3-1. Documents used to verify the borrower’s
deposits in a financial institution can be used only if they clearly identify their source (financial
institution’s name, address). The lender used a computer-generated cash flow statement that did
not have the borrower’s account number or the identity of the financial institution. Additionally,
the lender used bank statements that were more than five months old to verify one account.
Accordingly, the funds the borrower needed for loan closing were not adequately verified.




                                                134
Ineligible Third Party Contribution
HUD Handbook 4155.1, REV-5, paragraphs 2-10C. The borrower informed us that he did not
provide the $653 provided at closing to pay off his collection accounts and he believes these
funds were provided by either the seller or the lender. HUD considers such payments
inducements to purchase and requires a dollar-for-dollar reduction in the sales price and, in this
instance, the maximum insurable mortgage. The lender did not verify the source of the funds
used to pay off these debts. In this regard, a review of information in the file indicates that the
borrower historically had little money available to meet other than normal living expenses as he
consistently had bank overdrafts, often resulting from minor purchases.

Inadequate Analysis of Borrower’s Credit History
HUD Handbook 4155.1, REV-5, paragraph, 2-3. Suburban did not adequately analyze the
borrower’s credit history. The majority of the borrower’s credit history was composed of
collection and charge-off accounts, several of which were paid off at closing (see above). One of
the two noncollection accounts listed on the credit report showed that there had never been any
activity on the account. The other account listed was for the apartment complex where the
borrower was renting. However, although the credit report showed a good rental history, the
report also showed a court judgment obtained by the same complex against the borrower. The
lender did not resolve this apparent conflicting information. Thus, the lender did not document
that the borrower had any acceptable credit history.

Interested Third-Party Handling of Documents
HUD Handbook 4155.1 REV-5, paragraph 3-1. Lenders may not accept or use documents
relating to the credit, employment, or income of borrowers that are handled by or transmitted
from or through interested third parties (e.g., real estate agents, builders, sellers) or by using their
equipment. However, Suburban accepted income and asset documents relating to this mortgage
that were sent from the seller’s fax machine.

Recommendation
Indemnify HUD for the $113,883 mortgage.




                                                  135
